<html>
<title> - U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2015

                               __________

                           Serial No. 114-27

                               __________

         Printed for the use of the Committee on the Judiciary



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Available via the World Wide Web: http://judiciary.house.gov
                             ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-183 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      

      
      
      
      
      
      
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                            C O N T E N T S

                              ----------                              

                             APRIL 14, 2015

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Member, Committee on the Judiciary....     3
The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Member, Committee on the Judiciary    20
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................    21

                                WITNESS

The Honorable Sarah R. Saldana, Director, U.S. Immigration and 
  Customs Enforcement, Department of Homeland Security
  Oral Testimony.................................................    23
  Prepared Statement.............................................    26

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Member, Committee 
  on the Judiciary...............................................     6
Material submitted by the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................    10
Material submitted by the Honorable Henry C. ``Hank'' Johnson, 
  Jr., a Representative in Congress from the State of Georgia, 
  and Member, Committee on the Judiciary.........................    67

                                APPENDIX
               Material Submitted for the Hearing Record

Material submitted by the Honorable Luis V. Gutierrez, a 
  Representative in Congress from the State of Illinois, and 
  Member, Committee on the Judiciary.............................    96
Response to Questions for the Record from the Honorable Sarah R. 
  Saldana, Director, U.S. Immigration and Customs Enforcement, 
  Department of Homeland Security................................    97

 
                U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT

                              ----------                              


                        TUESDAY, APRIL 14, 2015

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:17 a.m., in room 
2141, Rayburn Office Building, the Honorable Bob Goodlatte, 
(Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Sensenbrenner, Smith, 
Chabot, Issa, Forbes, King, Franks, Gohmert, Jordan, Gowdy, 
Labrador, Farenthold, Collins, DeSantis, Buck, Trott, Bishop, 
Conyers, Lofgren, Jackson Lee, Johnson, Pierluisi, Chu, Deutch, 
Gutierrez, DelBene, Jeffries, and Peters.
    Staff Present: (Majority)Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian & General Counsel; 
Dimple Shah, Counsel; Kelsey Williams, Clerk; (Minority) Perry 
Apelbaum, Staff Director & Chief Counsel; Danielle Brown, 
Parliamentarian; Maunica Sthanki, Counsel; and Rosalind 
Jackson, Professional Staff Member.
    Mr. Goodlatte. Good morning.
    The Judiciary Committee will come to order. Without 
objection, the Chair is authorized to declare recesses of the 
Committee at any time. We welcome everyone to this morning's 
hearing on Oversight of U.S. Immigration and Customs 
Enforcement, and I will begin by recognizing myself for an 
opening statement.
    As the Obama administration consistently shrinks the 
universe of criminal and unlawful aliens that U.S. Immigration 
and Customs Enforcement can remove, ICE apprehensions have 
decreased 40 percent since this time last year. ICE 
administrative arrests of criminal aliens declined 32 percent 
compared to this time last year. The average daily population 
of aliens in detention facilities has declined to approximately 
26,000 beds. This has occurred despite a mandate in law that 
requires ICE to maintain a 34,000 average daily population in 
detention facilities. And the number of unlawful or criminal 
aliens that ICE has removed from the interior of the country 
has fallen by more than half since 2008.
    Many factors have contributed to the sharp decline of 
interior immigration enforcement under this Administration 
including the collapse of issuance and compliance with ICE 
detainers because of ICE's own detainer policy issued on 
December 21, 2014, that limits ICE's ability to issue 
detainers; ICE's failure to defend its detainer authority; 
ICE's implementation of its new enforcement priorities 
announced by Secretary Johnson on November 20, 2014; and the 
demise of the Secure Communities program on this same date.
    Detainers are a key tool used by ICE. They are notices 
issued by ICE and other DHS units that ask local, state, and 
Federal law enforcement agencies not to release removable 
aliens held at their facilities in order to give ICE an 
opportunity to take them into its custody and put them in 
removal proceedings.
    Due to the detainer debacle this Administration has 
created, ICE officers must wake up in the early hours of the 
morning, put their lives at risk, and go out into the community 
to apprehend convicted criminal aliens that have been released 
onto the streets.
    Director, you yourself are part of the confusion. You 
testified before Congress one day stating that detainers should 
be made mandatory, and the next day you retracted your 
testimony.
    When aliens released onto the streets go on to commit 
additional crimes, yet could have been placed ICE custody, this 
Administration is responsible. From January 1, 2014 to 
September 30, 2014, over 10,000 detainers were not honored. The 
recidivism rate for these aliens was 29 percent. Innocent 
citizens and law enforcement officers could be injured, maimed, 
or murdered due to a detainer not being issued or honored 
because of this Administration's policies. The Administration 
is responsible and will be held accountable.
    When President Obama announced unilateral changes to our 
immigration system with a wave of his pen and cell phone on 
November 20, 2014, he indicated that he would allow millions of 
unlawful and criminal aliens to evade immigration enforcement. 
He did this with the issuance of new, so-called ``U.S. 
Immigration and Customs Enforcement priorities'' for the 
apprehension, detention, and removal of aliens.
    Under the Obama administration's new enforcement 
priorities, broad categories of unlawful and criminal aliens 
will be beyond the reach of the law even if they don't qualify 
for the President's unconstitutional legalization programs. 
This means that millions of removable aliens will remain in the 
U.S. without any risk of removal.
    Simultaneously, President Obama effectively announced the 
end of Secure Communities. Despite the fact that the President 
claims he took action to prioritize immigration enforcement 
against criminal aliens, he is scrapping a tool that identifies 
criminal aliens booked in jails across the United States so 
that Federal law enforcement officials can prioritize their 
removal. Secure Communities, created in 2008, was a simple and 
highly successful program to identify criminal aliens once 
arrested and jailed. It protected American citizens and 
immigrants alike from aliens who were a danger to their 
communities.
    As ICE has said on numerous occasions, Secure Communities 
simply uses an already-existing Federal information sharing 
partnership between ICE and the Federal Bureau of Investigation 
that helps to identify criminal aliens so that ICE can take 
enforcement action. As of August 2014, the Administration 
indicated that over 375,000 convicted criminal aliens were 
removed as a result of Secure Communities.
    We just learned that in addition to releasing over 36,000 
convicted criminal aliens in fiscal year 2013, ICE released 
30,558 convicted criminal aliens in fiscal year 2014 pursuant 
to its so-called ``priorities.'' The agency released thousands 
of criminal aliens convicted of offenses involving dangerous 
drugs, assault and domestic violence, stolen vehicles, robbery, 
sex offenses, sexual assault, kidnapping, voluntary 
manslaughter, and even homicide. Twenty-seven percent of the 
aliens released were so-called ``level ones,'' according to the 
Administration; the worst of the worst.
    Director, ICE's first duty and highest obligation is public 
safety. The nonsensical actions of this Administration 
demonstrate its lack of desire to enforce the law even against 
unlawful aliens convicted of serious crimes. I can only hope 
that, as the new director of ICE, you will reconsider these 
policies put in place by your predecessors and return ICE to an 
agency that puts public safety and the enforcement of our 
immigration laws as its number one concern.
    It is now my pleasure to recognize the Ranking Member of 
the Immigration se statementand Border Security Subcommittee, 
the gentlewoman from California, Ms. Lofgren, for her opening 
statement.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Today's hearing is our first opportunity as a Committee to 
speak with the Honorable Sarah Saldana, the Director of U.S. 
Immigration and Customs Enforcement, known as ICE. The job that 
the director took on at the end of last year is a difficult 
one. I think we can all agree on that point. So I look forward 
to hearing more about how she intends to approach this 
challenge.
    One of the many responsibilities she must carry out at ICE 
is implementing a series of immigration enforcement memoranda 
issued in November by Secretary Johnson. These memoranda grew 
out of a directive issued last March by President Obama when he 
asked Secretary Johnson to ``do an inventory of the 
department's current practices to see how it can conduct 
enforcement more humanely within the confines of the law.''
    I believe the memoranda contains a number of commonsense 
reforms to our immigration enforcement efforts and they 
represent the Secretary's best efforts to carryout the 
President's directive. It is important to remember that these 
reforms did not take place overnight and they were developed to 
respond to a particular problem that we have observed over many 
years.
    During the Bush administration, ICE officials regularly 
conducted worksite raids targeting people who were living and 
working in the country without authorization, but who posed no 
threat to national security or public safety. Half of the 
people deported from the interior by ICE in the last 
Administration had never been convicted of a crime or had been 
convicted only of immigration or traffic offenses. Many were 
helping to grow our economy, put food on our table, while also 
supporting their own American spouses and children.
    The Bush administration began to shift away from that 
unfocused style of enforcement in its final years and this 
Administration has sought to continue the trend. Because 
earlier efforts fell short, Secretary Johnson's November memo, 
``policies for the Apprehension, Detention, and Removal of 
Undocumented Immigrants,'' hones in more carefully on the 
Department's top three civil immigration enforcement priorities 
and incorporates clear prosecutorial discretion guidance.
    The memo explains that prosecutorial discretion may be 
exercised not only for persons who fall outside of those 
priorities but also for persons who appear to be priorities but 
who have compelling extenuating circumstances. When making 
enforcement decisions, the memo directs immigrations, officials 
to consider individual circumstances such as the length of time 
the person has lived in the United States, Military service, 
number of years that have passed since an offense leading to a 
conviction, family or community ties, and other compelling 
humanitarian factors such as poor health, age, pregnancy, or 
young children. The memorandum makes clear that ``[d]ecisions 
should be based on the totality of the circumstances.''
    Given limited resources, it makes sense to focus, first, on 
persons who pose a threat to national security or public safety 
before we turn our attention to people who have lived in the 
country for years, have strong equities, and who are 
contributing members of their communities.
    So I hope we will hear today about what the agency is doing 
to ensure that the totality of the circumstances is considered 
in each case. I am concerned about reports that I continue to 
receive about enforcement actions being taken against people 
who appear to be candidates for prosecutorial discretion.
    The well-publicized case of Mennonite Pastor from Iowa, 
Pastor Max Villatoro, is one such case. Although Pastor Max's 
17-year-old conviction for driving while intoxicated 
undoubtedly counts as a ``significant misdemeanor'' and 
undoubtedly places him within the Priority two category, the 
extended length of time since that offense, his four U.S. 
citizen children, his marriage to a DACA beneficiary, and his 
years of service to his congregation appear to make him an 
ideal candidate for discretion. Yet he was deported to Honduras 
last month.
    The memorandum also explains that detention resources 
generally should not be used for persons ``who are known to be 
suffering from serious physical or mental illness, who are 
disabled, elderly, pregnant or nursing, who demonstrate that 
they are primary caretakers of children or an infirm person, or 
whose detention is otherwise not in the public interest.''
    When I talk about these issues, I am always reminded of 
Francisco Castaneda, who testified before the Immigration 
Subcommittee just 4 months before he died from cancer that went 
untreated throughout his 11 months in ICE custody. I was 
reminded of Mr. Castaneda again when I read an article last 
week about a detainee who died of intestinal cancer after being 
detained since 2010. I understand the Office of Professional 
Responsibility is reviewing this matter, but I think the case 
raises important questions about the November 20 memo.
    I also believe it is difficult to square the language in 
the memo with the Department's current policy of holding women 
and children in family detention for extended periods of time--
8, 9, 10 months--even after they have established a credible or 
reasonable fear of persecution. In recent months, we have 
received reports about the detention of a child with brain 
cancer, a mother with ovarian cancer, a mother with a 
congenital brain disorder, and a 15-day-old baby held with his 
post-partum mother. We are aware of at least one suicide 
attempt by a woman at the new Dilley facility.
    Our experience contracting with private prison companies to 
run family detention facilities has not been a good one. When 
the Corrections Corporation of America received a contract to 
convert a medium security prison into what became the Hutto 
facility, the results were awful. After litigation, 
Congressional oversight, and sustained public outrage, families 
were moved out of the facility. I am concerned that we are 
today making the same mistake we made then, but on a much 
larger scale.
    Finally, I think Secretary Johnson was wise to announce the 
end of Secure Communities. Right from the start, the program 
was based on misrepresentation to Federal, state and local 
officials, including me. It became deeply unpopular when it 
became clear that it was largely being used to apprehend and 
remove non-criminals and court challenges in legislative change 
to the state and local level rendered the program largely 
defunct.
    Now, when I spoke with the Director last month about the 
Department's efforts to roll out a priority enforcement 
program, we agreed that ICE must first regain the trust of 
state and local governments and law enforcement agencies. And 
that process begins with regaining the trust of immigrant 
communities. I believe the DHS memoranda issued in November has 
put us on the right track to a commonsense approach on 
immigration enforcement and I look forward to working with the 
director to ensure that the memoranda are being implemented in 
their entirety.
    And Mr. Chairman, I would like to ask unanimous consent to 
put two things in the record. One, a letter from We Belong 
Together about this hearing. And also the appropriations 
language that does not specify 34,000 people in detention. It 
says, ``The department shall maintain a level of not less than 
34,000 detention beds.''
    That is not people but beds. And I think we need to make 
clear what the statute requires. And I would ask unanimous 
consent to put both of those in the record. And I would yield 
back.
    Mr. Goodlatte. The time of the gentlewoman has expired. 
Without objection, her unanimous consent request will be 
granted.
    [The information referred to follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                               __________
    Mr. Goodlatte. And, without objection, I would like to 
place into the record a break down of criminal convictions 
associated with criminal aliens that ICE released in 2014, a 
breakdown of criminal convictions associated with the 2,457 
Zadvydas releases in 2014, and the enforcement and removal 
operation's weekly report for the week of March 29 to April 4, 
2015.
    [The information referred to follows:]
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                              ----------                              

    Mr. Goodlatte. The Chair now is pleased to recognize the 
Chairman of the Immigration and Border Security Subcommittee, 
the gentleman from South Carolina, Mr. Gowdy, for his opening 
statement.
    Mr. Gowdy. Thank you, Mr. Chairman.
    As we approach this hearing, Mr. Chairman, we are wise to 
keep in mind the primary duty of government, at least to my 
judgment, is the security and protection of the American 
people. Immigration and Customs Enforcement is a key part of 
fulfilling that duty because we entrust them with the 
enforcement of our immigration laws. In fact, Mr. Chairman, on 
the ICE website, the mission reads, ``U.S. Immigration and 
Customs Enforcement enforces Federal laws governing border 
control, customs, trade and immigration to promote homeland 
security and public safety.''
    Given the critically important mission entrusted to ICE, we 
take our oversight of that agency seriously and ICE's work has 
an immense impact on the people that we work for. But 
internally, as an agency, ICE has been plagued by low morale, 
tied for dead last for agency subcomponents in best places to 
work in the Federal Government. So one would have to ask 
himself or herself, even accepting the challenges of being in 
law enforcement generally, why is morale that low? Could it 
possibly be that women and men who signed up to enforce the law 
are now being asked not to?
    We also know there is a deep deficit of trust among our 
fellow Americans with regard to the immigration system. For 
years, they have been promised an immigration system that works 
and a secure border and those promises have not been kept by 
either party. Decisions by Administrations from both parties to 
selectively enforce our immigration laws have had a negative 
effect on our system; such is the case any time one selectively 
enforces the law. And you would think we would have learned 
that lesson by now but, apparently, we have not.
    Last year, President Obama declared unilaterally almost 5 
million undocumented aliens would receive deferred action under 
some new fangled definition of prosecutorial discretion. 
Moreover, in addition to using prosecutorial discretion as a 
license to rewrite the law, he also conferred benefits on these 
same people.
    So, Mr. Chairman, I want people to just understand this. 
The decision to avoid the application of consequences through a 
prosecutorial discretion is very different from the affirmative 
decisions to confer benefits on that same class or group. Those 
are two very different concepts. One, it can easily be argued 
is constitutionally rooted, albeit on a case-by-case basis; and 
the other, the conferring of benefits is a purely political 
calculation without much grounding if at all in the law.
    Mr. Chairman, folks may like the President's policy, they 
may wish the policy were the law, but one person does not make 
law in a republic and we should take heed that those who 
benefit from the non-application of the law today will be 
crying out for the full application of the law tomorrow, 
because such is the nature of the law. Once it is eroded, you 
do not restore it without great consequence.
    In fact, the President himself agreed with that and said, 
``The notion that I could just suspend deportation through 
executive orders is just not the case.'' He told us time and 
time and time again. He also reminded us that he was not a 
king. His position may have changed but the Constitution has 
not. Prosecutorial discretion is real and constitutionally 
valid, but it is not a synonym for anarchy.
    As U.S. District Court Judge Andrew Hanen wrote in his 
recent opinion, ``DHS does have the discretion in the manner in 
which it chooses to fulfill the expressed will of Congress. It 
cannot, however, enact a program whereby it not only ignores 
the dictates of Congress, but actively moves to thwart them.''
    In effect, the Administration has asked ICE officers to 
stop enforcing entire categories of our immigration law. And 
not only that but, under the current Administration's new 
enforcement priorities, millions of aliens who are not even 
eligible to benefit from Administrative Amnesty can simply 
remain in the U.S. in violation of the law without fear of 
enforcement.
    Now, Mr. Chairman, you have touched upon the detainer 
issue, and I look forward to going to that in more question. I 
would also like to say, and I do welcome the new director who 
is a former U.S. Attorney and I will hold anyone who has had 
that title in extremely high regard, but I am interested in 
hearing, because of her unique background, I want to hear her 
address the limitations on the doctrine of prosecutorial 
discretion. And I would like to hear the new director explain 
why the President was wrong the 22 different times he said he 
could not legally do what he just did. And I am eager to hear 
the new director discuss whether prosecutorial discretion can 
be applied in all categories of the law. And I am eager to hear 
her address the number of aliens who abscond and what is being 
done on the frontend to reduce the chances of that happening. 
And I am interested, Mr. Chairman, in hearing with 
particularity what she is going to do to restore morale and 
pride in the agency, because the folks I have talked to 
honestly, Mr. Chairman, would pick another agency or even 
another line of work.
    With that, I will yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and is now 
pleased to recognize the Ranking Member of the Committee, the 
gentleman from Michigan, Mr. Conyers, for his opening 
statement.
    Mr. Conyers. Thank you, Chairman Goodlatte.
    I want to add my welcome to Director Sarah Saldana in her 
first appearance before the House Judiciary Committee.
    We are advised of your great experience in Immigration and 
Customs Enforcement, as a U.S. Attorney for the northern 
District of Texas, and as Assistant U.S. Attorney for northern 
District of Texas and your prosecution of a number of criminal 
cases. You have also worked at the Equal Employment 
Opportunities Commission, the Department of Housing in Urban 
Development, and the Department of Labor. What a background. 
And I am confident that you will be an exceptional leader of 
the largest investigative agency within the Department of 
Homeland Security.
    Now, this presents enormous challenges but also 
opportunities. And we are looking to hear from you on that 
account.
    Now, the director comes to the agency at a time of renewed 
focus. Last March, President Obama directed the Secretary of 
Homeland Security, Jeh Johnson, to review our Immigration 
enforcement policies to ensure that we are carrying them out in 
the most humane way possible. In November, the Secretary 
announced a series of commonsense reforms to not only ensure 
that our laws are enforced in a humane way but also that our 
limited resources are focused on enhancing the safety and the 
security of the country.
    Secretary Johnson issued a memorandum identifying three 
categories of persons as department-wide priorities for 
enforcement. The top priority includes people who pose a threat 
to national security, border security, and public safety. 
Notably, these priorities mean the agency will focus resources 
on deporting felons before raiding kitchens and fields for bus 
boys and farm workers.
    Focusing the limited agency resources on deporting 
criminals rather than families is simply good public policy. 
The memo also explains that enforcement always should be done 
in a sensible manner that takes into consideration the totality 
of the circumstances. In deciding whether to exercise 
prosecutorial discretion in a given case, immigration officials 
should consider factors such as the circumstances surrounding a 
conviction, the length of time that has passed since an offense 
was committed, and the deep ties that a person may have in this 
country.
    This is a humane approach that ensures enforcement efforts 
are focused on the worse offenders in our society and not on 
individuals with strong community ties in compelling 
circumstances. I support this approach.
    Director Saldana comes to the agency at a time of some 
uncertainty. Two important initiatives have been preliminarily 
halted by a district court in Texas: deferred action for 
parents of Americans in lawful permanent residents and 
expansions to deferred action for childhood arrivals. But the 
court was clear that its decision had no effect on the 
memorandum to set enforcement priorities and provided 
prosecutorial discretion guidance. With so much uncertainty and 
distrust of the agency's swirling in immigrant communities it 
is important for ICE to communicate clearly that it still 
intends to use its prosecutorial discretion in a sensible 
manner and as directed by the secretary.
    As always, actions ultimately speak louder than words.
    And, finally, as I noted before, the Administration's use 
of prosecutorial discretion does not absolve the Congress of 
its responsibility to pass comprehensive immigration reform. 
Top to bottom, reform of our broken immigration system can only 
be accomplished through bold legislative action. It is time for 
us, the Congress, to start doing its job.
    And I thank the Chairman.
    Mr. Goodlatte. Thank you, Mr. Conyers.
    We welcome our distinguished witness today. And, if you 
would rise, I will begin by swearing you in.
    Do you swear that the testimony that you are about to give 
shall be the truth, the whole truth, and nothing but the truth 
so help you God?
    Ms. Saldana. I do.
    Mr. Goodlatte. Thank you.
    Let the record reflect that the witness responded in the 
affirmative.
    Ms. Sarah R. Saldana currently serves as Director of 
Immigration and Customs Enforcement where she is tasked with 
overseeing the enforcement of more than 400 Federal statutes, 
preventing terrorism, and combating the illegal movement of 
people and trade. Prior to becoming Director of ICE, Director 
Saldana served as the United States Attorney for the northern 
District of Texas. Before joining the Department of Justice, 
she worked in private practice and at the Equal Employment 
Opportunity Commission, Housing and Urban Development under the 
Department of Labor. Director Saldana graduated summa cum laude 
from Texas A&I University and earned her JD degree from 
Southern Methodist University.
    And, before you begin your testimony, I want to take a 
moment to thank you and your staff for the good work that has 
been done in helping us prepare for this hearing. The Homeland 
Security Investigations, the Enforcement and Removal 
Operations, the Office of Congressional Relations, and 
individuals in ICE's front office who communicated with the 
Committee ahead of this hearing and provided responsive 
information to some of our substantial requests. This type of 
communication and coordination is new in our experience with 
your agency in recent years, and I hope that it continues. And 
I thank you very much for your efforts.
    When I met with you a few weeks ago, you committed to 
working closely with the Congress and you have fulfilled that 
in answering our request for preparation for the hearing.
    Your written statement will be entered into the record in 
its entirety and I ask that you summarize your testimony in 5 
minutes or less. To help you stay within that time, there is a 
timing light on your table and, when the light switches from 
green to yellow, you have 1 minute to conclude your testimony.
    Director Saldana, welcome.

  TESTIMONY OF THE HONORABLE SARAH R. SALDANA, DIRECTOR, U.S. 
  IMMIGRATION AND CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. Saldana. Thank you so much, Chairman Goodlatte, Ranking 
Member Conyers, other esteemed Members of this Committee.
    You are right, this is my first appearance before this 
Committee and also with respect to my prior service as the 
United States Attorney for the northern District Texas duty 
that I had undertook and I am very proud of.
    In that period of time that I was the United States 
Attorney, I had the great privilege of working with both 
Homeland Security Investigations, HSI, agents, a couple of whom 
are here today, and with the Enforcement and Removal Operations 
folks with respect to removals and the need for Federal 
intervention in connection of some of those. During that time, 
I personally observed the dedication, commitment, hard work of 
the women and men of Immigration and Customs Enforcement all 
through the ranks; deportation officers, international and 
mission support staff attorneys. All of them working very hard 
to keep our homeland safe.
    It's a great privilege to continue my law enforcement 
career in this capacity as the director of the agency. As was 
mentioned earlier, ICE does enforce over 400 laws. In my work 
as the United States Attorney, somebody stopped counting at 
3,000 that United States Attorneys enforce. It's a difficult 
challenge to have so many statutes, but we're up to that--did 
you refer to that as an opportunity?
    Representative Conyers, I believe you did.
    And I consider it a privilege. I appreciate the importance 
of this mission. I assure you. And I know, as you do, that 
having a productive and collaborative relationship with you and 
the other Committees of this Congress is essential to us 
working together to meet the responsibilities the American 
public expects.
    My goals over the next 2 years are to enhance ICE's 
important cybersecurity and counterterrorism initiatives, to 
focus our removals on the highest priority individuals who 
threaten our communities, to improve morale within the 
workforce, as Representative Gowdy pointed out, and to improve 
communication between ICE and all of its partners.
    For today's hearing, let me just provide an overview of 
what ICE does, a little bit of a highlight with respect to our 
accomplishments, and our challenges.
    In ERO, Enforcement and Removal Operations, there are two 
parts to ICE principally. Besides the lawyers, we've got 
Enforcement and Removal and Homeland Security Investigations. 
In ERO, we have 6,000 very dedicated law enforcement officers 
who go about the business of removing, apprehending, and 
removing those people that present the greatest risk to the 
American public.
    In carrying out this responsibility, they have a wide array 
of important and complex responsibilities including operating 
ICE's detention facilities, making arrangements for 
transportation across the world in removing individuals from 
the United States, and obtaining travel documents from other 
countries with all kinds of requirements connected to them. ERO 
works very closely with its sister agencies, Customs and Border 
Protection and with Citizenship and Immigration Services, all 
within Homeland.
    HSI, on the other hand, focuses on criminal, international 
criminal investigations. And anything dealing with the illegal 
movement of people and things in and out and within the country 
for that matter. While ERO enforces civil litigation, HSI 
focuses on the criminal aspects. That is the area with which 
obviously I dealt mostly as United States Attorney and 
Assistant United States Attorney.
    A couple of words on our successes. And this isn't the end 
of the story, this is the beginning of it. I look forward 
reporting even better results in the future. ERO removed nearly 
316,000 individuals unlawfully present in the United States in 
2014; more than 102,000 were apprehended in the interior of the 
United States; and, perhaps more importantly, 85 percent of 
those were immigrants previously convicted of a criminal 
offense. This demonstrates our renewed focus on the worse 
criminals: convicted felons, gang members, and other threats to 
our national security. That number, 85 percent of immigrants 
who were convicted of a criminal offense, is an 18 percent 
increase over prior years, 2011 in particular. HSI, the 
investigative arm, arrested more than 32,000 criminals and 
seized more than 1.3 million pounds of narcotics, 35,000 
weapons, and $772 million in currency.
    The challenges. You all know about last summer and the 
influx of, overwhelming and unexpected influx of families and 
unaccompanied children, which tax the resources of many Federal 
agencies, not just ICE, but certainly ICE. ICE, in fact, had to 
assign about 800 personnel to the Rio Grande Valley crisis and, 
obviously, that takes time away from the work that you do day-
to-day.
    Secondly, the dramatic increase in the number of 
jurisdictions that you all referred to earlier, with respect to 
our detainers. Last calendar year, almost 12,000 detainer 
requests from ICE were not honored by state and local 
jurisdictions. One of my priorities is to reverse that trend. 
To that end, we're implementing the Priority Enforcement 
Program, PEP as it's known and that you all have referred to, 
which clearly reflects DHS's new priorities.
    And let me say, Chairman, I terribly regret if I had added 
to the confusion with respect to detainers. My principal 
interest is in public safety. It is not in quibbling with 
people over how we accomplish that goal. And I believe I want 
to be sure that everyone understands that I am committed to the 
Priority Enforcement Program that the secretary has directed us 
to enforce.
    Finally, of course, is the change in the demographics of 
the migrant community. People coming from South America takes 
more resources, more time, more people. A greater challenge is 
in repatriating them to their countries rather than to Mexico 
or Canada.
    My first months as director have been full. Not only in 
becoming familiar with these challenges and the accomplishments 
of the agencies I just described but in developing plans to 
address all of these challenges. Like so many of you, I left my 
family, my friends, the great state of Texas, of which I've 
lived all my life, to come to the District of Columbia to 
participate with you all in an effort to try to bring some 
rationality to this very important mission of ICE. That is the 
only reason I'm here. It's not for the glory and it's not for 
the big bucks. I will tell you that I need your help to 
accomplish that goal and to move the agency forward in that 
regard. So I ask for your help in doing so.
    I welcome your questions.
    [The prepared statement of Ms. Saldana follows:]
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    
                               __________
    Mr. Goodlatte. Well, thank you, Director Saldana.
    I will start. And I will start with some recent quotes; one 
by the President and one by you that I find disturbing. You 
just alluded to one a moment ago. Bur first, the President 
recently at a town hall stated, regarding the new DHS 
enforcement priorities that, ``The bottom line is that if 
somebody is working for ICE and there is a policy and they 
don't follow the policy there are going to be consequences to 
it.''
    And he analogized it to the U.S. military in the 
requirement that you follow orders. ICE officers are required 
to enforce the laws that Congress enacts.
    Do you agree with that?
    Ms. Saldana. Absolutely.
    Mr. Goodlatte. Please explain to the Committee the type of 
consequences that ICE officers may face if they do not execute 
the new policies, which in instances contradict those laws?
    Don't you think an ICE officer hearing threats from the 
President would be scared to enforce the law?
    Ms. Saldana. I give them more credit than that, Mr. 
Chairman. I will tell you that, with respect to enforcement, 
any policy of the Department or Immigration and Customs 
Enforcement, new or old, certainly just as you do with your 
staff, we expect compliance with that policy.
    Mr. Goodlatte. If they detain somebody who doesn't meet 
those priorities but is in violation of a law enacted by the 
Congress, are they going to be punished for doing that?
    Ms. Saldana. The word is not punish, sir. It is enforcing 
the law and the policies that this Administration----
    Mr. Goodlatte. What's going to happen to an ICE agent who 
enforces the law that are contradictory to the President's 
policies, which says don't enforce the law, with regard to 
certain people?
    Ms. Saldana. That is not my view of the President's 
policies, sir. The executive action actually is----
    Mr. Goodlatte. He said it. Not me.
    Ms. Saldana. That is not my view of the President's 
policies. I believe they are actually directed in a very 
rational way. I mentioned earlier that----
    Mr. Goodlatte. Right.
    But the point is, though, that the law encompasses far more 
illegal activity than simply those that are set forth in the 
President's policies. And I want to know what happens to an ICE 
agent, may have been working for the agency for years, 
following the law, upholding the law, who detains somebody who 
is not covered under that policy. What is going to happen to 
that ICE agent under those circumstances?
    Ms. Saldana. Let me tell you, sir, you mentioned something 
about the full extent of the law, and the Constitution does 
require us to faithfully execute it. Part of that, in my view 
and as in my experience as United States Attorney, I mentioned 
3,000 laws when we stopped counting, I could not enforce every 
one of those laws as the main prosecutor for the United States. 
But I could actually make priorities within my office and did.
    Mr. Goodlatte. Well, you are not answering my question so 
let me go on to one that involves a statement made by you.
    You testified before the Oversight and Government Reform 
Committee on March 19 expressing your support for mandatory 
detainers. The very next day, you retracted that statement made 
under oath and called mandatory detainers highly 
counterproductive. In 2014, local jurisdictions declined to 
honor approximately 12,000 detainers. So far in 2015, there 
have been approximately 3,000 detainer denials. There are now 
more than 200 jurisdictions that refuse to honor ICE detainers, 
effectively releasing criminal aliens out onto our streets.
    While you flip-flop before Congress and the American 
people, ICE officers go out into the community and conduct at 
large operations in order to apprehend released criminal 
aliens. It makes their job much, much harder. Right? Instead of 
just going to the jail and getting the detained alien to put 
him through the deportation process, they had to go out, find 
them, apprehend them, sometimes under very dangerous 
circumstances. This puts their lives at risk, threatens public 
safety, and expends limited Federal resources.
    If a detainer was issued, a simple and cost-effective 
custodial transfer would have occurred. This is a problem. And 
your solution, the Administration's solution, is a failure. 
Politely asking for cooperation from recalcitrant 
jurisdiction's so-called ``Sanctuary Cities'' is a fool's 
errand. Isn't the clear answer to this problem a requirement 
for everyone to honor ICE's detainer authority; an authority 
that keeps our communities and our law enforcement officers 
safe?
    Ms. Saldana. That authority is being challenged in court, 
sir. There is a morass of lawsuits across the country on that 
very issue. I will tell you----
    Mr. Goodlatte. Why hasn't your agency and the Department of 
Justice and the Department of Homeland Security defended those 
lawsuits against these detainers?
    Why haven't you taken affirmative, aggressive position to 
say, ``Yes, the detainers need to be honored?''
    Ms. Saldana. I will tell you that I have the same concern 
you do, sir. Public safety of our officers is paramount, in my 
estimate.
    I went on Operation Cross Check back in February wearing a 
bulletproof vest, there to watch the operation in-practice 
where we are actually trying to reach out and find criminal 
undocumented immigrants. I am very concerned about the risk 
they face. But, I will tell you that I believe that the PEP 
program, if we give it a chance--and, again, I do regret that 
confusion I caused with respect to my statement. And the only 
reason for the statement the following day was because I had 
been asked whether it would help law enforcement. And let me 
tell you, sir, my reaction was focused on that: What helps law 
enforcement?
    But I am committed to PEP. I am committed to asking 
communities to assist us. I am committed to persuade them that 
the best thing for the safety of their own communities is to 
cooperate with United States in its effort to enforce the 
immigration laws in accordance with the President's priorities.
    Mr. Goodlatte. Thank you, Madam Director.
    My time is expired. The Chair recognizes the gentleman from 
Michigan, Mr. Conyers, for his questions.
    Mr. Conyers. Thank you, Chairman Goodlatte.
    Director Saldana, you make me feel more comfortable now 
that we have read and listened to your performance here before 
the House Judiciary Committee.
    The three things that I wanted to bring to your attention 
and get your comments on. One is the idea that the memorandum 
was not affected by the court's ruling and that ICE intends to 
fully implement the Secretary's memorandum.
    Could you comment on that?
    Ms. Saldana. I believe what you are referring to, 
Congressman, is the fact that there is a ruling that stops, 
calls to a halt, expanded DACA and the new DAPA program. And we 
are obviously, all the agencies to my knowledge, CIS, CBP and 
ICE, are complying with that ruling. And it will make its way 
through the appellate courts. But it did not effect, it did not 
effect the November 20 enunciation of our priorities by the 
Secretary in which we clearly implemented to our people.
    We have actually put out in the field substantial training 
on this, sir. And every officer uses one of these cards, which 
clearly outlines those priorities. They carry it with them. 
Quite frankly, I carry it myself and try to make sure that each 
of these priorities, both respect to the first--the first one 
is outlined in the front. The second and third priorities on 
the back. Again, trying to make an effort to clarify for law 
enforcement where our priorities should be.
    So that is what is meant by that. The only thing that was 
affected by the injunction was the expansion of DACA and the 
new initiation of the DAPA program.
    Mr. Conyers. Very good.
    Now, what steps is ICE taking to ensure the persons who are 
not a priority for removal are not targeted for enforcement 
actions or are not inadvertently swept up in enforcement 
actions?
    Ms. Saldana. Well, one of the steps, sir, is the training. 
And it was substantial and we just completed it in January, 
which was the initiation kickoff of the executive actions; and 
that includes those priorities. I have met with every one of 
the field office directors in the entire country by video. I 
have directed them that if they have any questions they are to 
raise it up their chain and ultimately to me who bears the 
ultimate responsibility with respect to the appropriate 
enforcement of those priorities. Our training doesn't stop with 
that, that was completed initially; it is continuing, kind of, 
a spectrum.
    And I have also met with our lawyers. There are about 900 
of them across the country who has worked with the immigration 
courts in order to ensure in their review of the priorities and 
the people who have been targeted for enforcement that we are 
complying with those priorities.
    Mr. Conyers. Very good.
    Let me ask this question about some reports that have come 
to our attention about mothers and children in family 
detention. There was a memo drafted by the secretary explaining 
field officers and directors should not expend detention 
resources on aliens who are known to be suffering from serious 
physical or mental illness. In light of this memo, how, if you 
know, does ICE justify detaining mothers and children with such 
serious physical or mental illnesses?
    Ms. Saldana. I think you are also aware, Representative, of 
the injunction that was imposed by the Washington, D.C. court 
with respect to the detention of families and not to use 
deterrents as a factor. Every one of those families, just like 
others, is afforded the opportunities provided by law with 
respect to seeking asylum, seeking some relief from the United 
States with respect to their presence here.
    I will say I have met with the secretary many times 
discussing this very same subject. I just met on Thursday of 
last week with religious leaders from all sectors of the 
religious community who have expressed very serious concerns 
about the detention of families and children. And we are doing 
our best right now.
    I know the secretary has considered it. I know that we have 
released, with respect to that injunction, quite a few of these 
families. Some of them continued because they cannot meet a 
detention bond, but it is something that has been well 
considered by the Secretary. And, for now, we are going to 
hold, with respect to particularly new entrants, sir, which is 
part of our priorities, that line.
    Mr. Conyers. Madam Director, I thank you for your candid 
responses.
    Thank you, Mr. Chairman.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Texas, Mr. Smith, for 5 minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Director, a recent public opinion poll apparently shows 
that the American people repudiate President Obama's 
immigration policies. This was a Rasmussen Reports national 
survey just a few days ago that found that 62 percent of the 
American people believe the Administration is not doing enough 
to deport illegal immigrants. This is up ten points from just a 
year ago. I think this is the American people's response to the 
President's executive amnesty orders.
    Contrary to what the American people want, it appears that 
deportations are down again this year. I think there were only 
about 100,000 from the interior. You said a while ago that 
about 85 percent are those who had been convicted of crimes. 
But that means that only about one out of 300 other illegal 
immigrants are going to be removed from our country. In my 
opinion, that is not enforcing immigration laws. In fact, it is 
ignoring immigration laws.
    Furthermore, the Administration, as you also mentioned, 
released about 30,000 convicted illegal immigrants and allowed 
them to be returned to our communities. One quarter of these 
30,000 criminal aliens had been convicted of Level 1 crimes, 
such as murder, rape, and sexual abuse of a minor. Of those 
30,000, only 8 percent were Zadvydas cases. Thousands could 
have been deported.
    Why did the Administration intentionally endanger the lives 
of innocent Americans by releasing thousands of criminal aliens 
into our neighborhoods?
    Ms. Saldana. Representative, this is an area of great 
concern for me when I first started in January.
    Mr. Smith. If it is of great concern, why did you do it?
    Ms. Saldana. I would like to explain----
    Mr. Smith. Sure.
    Ms. Saldana [continuing]. Why we are moving forward as we 
are.
    We do not have a policy--our decisions, whether they are 
detention decisions, bond decisions, release decisions, are 
governed by several things and often involve the courts. As you 
know, and I think that the Chairman noted, about half in 2014 
of the releases were as a result of Zadvydas and which requires 
us to release people after a certain time----
    Mr. Smith. Okay. My statement was, and you haven't 
contradicted it, that the Administration is intentionally 
releasing thousands of individuals. These are convicted 
individuals of serious crimes, back into our neighborhoods and 
communities. It actually increased over the last year from the 
year before. Why are you doing this to the American people? You 
know their recidivism rate is high. You know these individuals 
are going to be convicted of other crimes. Why are doing this 
to the American people?
    Ms. Saldana. If I may answer, sir? If I may complete my 
answer. What I am saying is; again, let's make sure we are 
comparing apples to apples. We are talking about about 55 
percent of those having been ICE discretionary decisions which 
I think is the heart of concern.
    Mr. Smith. I am willing to concede several thousand are in 
that category.
    Ms. Saldana. Yes.
    Mr. Smith. I am also willing to concede that 8 percentage 
of Zadvydas. That still leaves thousands of people that should 
be deported, in my opinion, that are not being deported that 
are endangering innocent Americans. Again, why are you doing 
this? Why aren't you----
    Ms. Saldana. Because the Congress lays out due process, 
sir, for every person that is detained.
    Mr. Smith. Are you disagreeing? Are you saying that you 
could not deport these individuals, thousands of these 
individuals?
    Ms. Saldana. I cannot deport any individual without an 
order from the court, either an immigration court or a Federal 
court.
    Mr. Smith. Right. And if you sought that order, you could 
deport thousands of these individuals and you are not trying to 
do it. Again, why not?
    Ms. Saldana. We only make decisions with respect to--you 
know, the criminal justice system releases murderers, rapists, 
sexual assaulters every day when a Federal judge decides, you 
know, this person does not present a flight risk or a danger to 
the community. That is the same considerations the law and the 
regulations prescribe from us.
    Mr. Smith. Yes. The law allows you to deport these 
individuals if you want to.
    Director, you are not giving the American people a good 
answer. I hope you will come back with a better answer in the 
future. And let me go to the next subject, which is Secure 
Communities.
    You said in your testimony that one of the reasons that the 
Administration terminated Secure Communities is because local 
jurisdictions refused to comply with it. Well, this is 
interesting that you don't feel that if local jurisdictions 
want to comply with Federal laws, they don't need to or you are 
going to not force them to do so. But, have you ever challenged 
any of these local jurisdictions to comply with the current 
Federal law?
    And let me read you that Federal law real quickly. It says, 
``If Federal, state, or local government entity or official may 
not prohibit, or in any way restrict, any government entity or 
official from sending to, or receiving from----''
    Ms. Saldana. Sir, I am sorry. I am having difficulty----
    Mr. Smith. ``The Immigration and Naturalization's service 
information regarding the citizenship of immigration status 
lawful or unlawful----''
    Ms. Saldana. Representative Smith, I am having difficulty 
hearing you. I am sorry.
    Mr. Smith. Okay. Just take my word. The current law says 
that local communities should be able to work together with 
local and Federal officials to remove individuals. And you 
yourself had said one reason you are not enforcing laws is 
because local communities failed to comply with it. Why aren't 
you trying to enforce it? In what ways have you tried to force 
local communities to follow Federal law?
    Ms. Saldana. Again, that is a subject of litigation you 
yourself just said should cooperate.
    Mr. Smith. What has the Administration done to try to 
enforce current law in regard to Secure Communities?
    Ms. Saldana. We have met the secretary----
    Mr. Smith. You haven't filed any lawsuit against any 
entity.
    Ms. Saldana. I have not filed any lawsuit, sir.
    Mr. Smith. And that is my point. Why didn't you try to 
force----
    Ms. Saldana. There are plenty lawsuits out there----
    Mr. Smith [continuing]. To comply with Federal law?
    Ms. Saldana. Excuse me. I am sorry, Representative.
    There are plenty of lawsuits out there that are still in 
the middle of litigation. I am not going to opine or get in the 
middle of those.
    Mr. Smith. No, no.
    Ms. Saldana. What I am trying to tell you is----
    Mr. Smith. I am not asking you to.
    The Administration has not done anything to try to enforce 
the current Secure Communities law. Do you have any evidence 
that----
    Ms. Saldana. That comes as a surprise to me because I 
personally have been engaged in meeting with representatives--
--
    Mr. Smith. The Administration has done the opposite. They 
have said you don't need to comply.
    Ms. Saldana. May answer the question, please?
    Mr. Smith. Sure.
    Ms. Saldana. I really do want the American public to 
understand that I am not sitting on my hands. I actually have 
gotten out to meet with the major city police chiefs, the major 
county sheriffs, the California corps of sheriffs when they 
were in town a couple of months ago, and other jurisdictions to 
personally advise them of what the parameters of the law are, 
what we are trying to do to work with them to get----
    Mr. Smith. But you said in your own testimony----
    Mr. Goodlatte. The time of the gentleman has expired.
    Mr. Smith [continuing]. You weren't going to enforce the 
law because they----
    I will yield back, Mr. Chairman, but I am so sorry that the 
American people aren't getting good answers today.
    Mr. Goodlatte. The Chair recognizes the gentlewoman from 
California, Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Mr. Chairman, I would just like to say I think 
it is disappointing that the witness, the Director, was not 
really given an opportunity to answer the questions. And I 
don't want to use all my time on Mr. Smith's questions, but I 
will say that so far as I know, and you can say yes or no, the 
fingerprints that are taken in county detention facilities are 
still being received by the Federal Government and ICE.
    Ms. Saldana. Yes, that hasn't changed.
    Ms. Lofgren. That has not changed. What has changed is the 
litigation, and I will use the State of California as an 
example. The State of California passed a law called the Trust 
Act that says that counties are not to deliver people who have 
committed no offense or a minor traffic offense of that sort. 
Why is that?
    I mean in my own county, the Board of Supervisors and 
Sheriff decided that they will turnover individuals or hold 
them if they are indemnified. Why? Because they can't lawfully 
hold somebody without probable cause that a crime has been 
committed. So what you have done is to try and fix that.
    Ms. Saldana. And I have offered to you during our meeting 
earlier--I am sorry.
    Ms. Lofgren. I am sorry. I am getting a cough drop here.
    Ms. Saldana. I have got cough drops here.
    Ms. Lofgren. I do too.
    Ms. Saldana. And I have offered during our meeting----
    Ms. Lofgren. Right.
    Ms. Saldana [continuing]. Come and visit with your local 
officials and----
    Ms. Lofgren. But the point is you are being asked to 
violate court orders and you can't do that.
    That is correct?
    Ms. Saldana. I am here to enforce the law.
    Ms. Lofgren. That is correct.
    I want to talk about a family detention. And I know that 
you mentioned the meeting that you had, but I am concerned. Our 
policy that was adopted in November basically says that we 
should prioritize felons not families. However, we have now 
increasing numbers of families not felons being held in 
detention centers, and I am concerned about the contractor that 
is in charge of much of this.
    I understand that there were women who were either on a 
hunger strike or a religious fast--I don't know how you want 
to--at the Karnes County Residential Center. We had staff down 
there over the Easter break who observed and discussed with 
some of the women that they had been put in medical isolation. 
Some of these women have been held for six, seven, 8 months 
with their children.
    We have, and I would ask unanimous consent to put into the 
record, an affidavit from Luis Zayas, the Dean of the School of 
Social Work at the University of Texas in Austin. And in his 
declaration, the Dean explains that he has interviewed several 
families at the Karnes Detention Center and found that 
``detention has had serious and long lasting impacts on the 
health and well-being of the families I interviewed at 
Karnes.''
    So I am just concerned. We don't have a pediatrician on 
site at Karnes nor at the facility in Berks, Pennsylvania. We 
have over a hundred children being detained. We have some 
evidence of lasting and serious adverse impacts on the well 
being of the children that are being held in jail. I want to 
know what process we are going to use to review that. 
Obviously, the court in D.C. issued an injunction, which I know 
that you are complying with, but the problem is that the bonds 
have been set so high. If you are, you know, basically an 
asylee from Central America, being held in prison for six, 
seven, 8 months with your children, you don't have $10,000 to 
get out.
    So are we taking a look at the alternatives to detention 
for people whose cases, whose credible fear findings have 
already been made?
    Ms. Saldana. We certainly are looking at alternatives for 
detention. As you may well know, we have quite a few families 
on the ATD program. It is essentially release but with some 
increased supervision, and we have enjoyed some success with 
that program.
    I will say that every decision, Congresswoman, that our 
officers make, and they use their best judgment, they are 
trained, they are seasoned, to try to determine what the 
appropriate bond is once they say, ``Okay, you should be 
released but we need some--''
    Ms. Lofgren. Well, I would like to follow up with you 
because we are hearing something quite different----
    Ms. Saldana. I would be happy to.
    Ms. Lofgren [continuing]. In the advocacy community. And, 
you know, we will get to the bottom of it later.
    I would like to use the remainder of my time to let you 
answer Mr. Smith's question about who you are releasing, the 
Zadvydas decision, and the other circumstances that require you 
to release.
    Ms. Saldana. As I said, the Congress, not this particular 
Congress but the Congress, has laid forth due process for any 
individual whether they have come into our country illegally or 
not with respect to their claims for relief from deportation. 
So often, they go through these proceedings and we comply with 
those requirements. The considerations that the statute and the 
regulations themselves contemplate, contemplate the release of 
criminals because it says, as one of the factors to consider in 
determining, is the person's criminal history. How long ago was 
it? What was the severity of it? How extensive is it? Those 
kinds of considerations.
    So even the Congress has contemplated that some people were 
released and it is certainly part of the criminal justice 
system.
    Ms. Lofgren. So you are saying----
    Mr. Goodlatte. The time of the gentlewoman has expired.
    Ms. Lofgren. But if I may please have 30 seconds 
additional? If the judge----
    Mr. Goodlatte. Without objection.
    Ms. Lofgren [continuing]. An immigration judge, orders an 
individual released, do you comply with that order?
    Ms. Saldana. I do.
    Ms. Lofgren. Thank you, Mr. Chairman. I yield back.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Ohio, Mr. Chabot, for 5 minutes.
    Mr. Chabot. Thank you, Mr. Chairman.
    Thank you, Madam Director, for being here this morning.
    ICE released, as we have heard before, over 36,000 criminal 
aliens in 2013 and nearly 31,000 in 2014. Many of us are really 
shocked and consider this to be a quite appalling policy. You 
mentioned in your testimony that one of the new policies 
addressing this problem is a ``Senior Manager Review of 
discretionary release decisions for individuals convicted of 
crimes of violence.''
    How is this an improvement? Instead of allowing people in 
the field to make decisions, you have a bureaucratic 
headquarters. And, let's face it, there are oftentimes the 
folks out in the field are already micromanaged by folks at the 
headquarters on decisions that agents oftentimes have to make 
in the field when they are facing a situation; which it is hard 
to know back at headquarters what they are actually dealing out 
there in real-life situations. And then, ultimately, approving 
the release of a violent criminal alien.
    Shouldn't the policy response to ICE releasing violent 
criminal aliens be not to release violent criminal aliens?
    Ms. Saldana. I have mentioned the due process requirements. 
I talked about it earlier. But, sir, the policy that I 
initiated is a response to this Committee and every Member of 
Congress, I believe, to the release of criminal aliens. I 
myself have a concern. Are we making the proper decisions? Do 
we have a process in place to review those decisions?
    And that is what exactly I announced last month in March. 
That is you will have a local supervisor including the field 
office director, the top person in the field, reviewing the 
decision. You will also have a group, a small group, of very 
well seasoned managers who will review these decisions. I want 
to be sure that the process is followed to ensure that we are 
not putting, we are not as an institution putting dangerous 
criminals on the streets. So that is why I have asked for this 
additional review to satisfy myself and you all.
    Mr. Chabot. Thank you.
    To the extent possible, I would encourage you to allow the 
experienced men and women that are actually on the street and 
dealing with these life and death decisions sometimes to make 
those decisions, if at all possible.
    Let me move on to another area. While I appreciate that the 
use of new technologies are potentially useful law enforcement 
tools, I do have some concerns with the Department of Homeland 
Security's recent announcement that it is offering up a 
contract for companies to monitor people's license plates. In 
particular, I am concerned that government programs, which 
track citizen's movements, capture images, and collect data of, 
oftentimes, innocent Americans, raises serious privacy 
concerns.
    Just a year ago, DHS and your agency cancelled similar 
plans for access to a national license plate tracking system. 
Your agency's more recent request comes at a time when your 
agency has failed to enforce current laws that have resulted in 
an 18 percent decrease in criminal alien removals and the 
release of over 36,000 criminals, as we have already discussed 
to some degree. Why are we to believe that your agency will 
properly use this new license plate data and technology when 
your agency has a track record of not enforcing U.S. 
immigration laws and the collection of a person's location 
while in public and collected over time is sensitive 
information and should be treated as such?
    What assurances can you give that the personal information 
of, for the most part, innocent people, because that is who 
will usually be tracked is people that have done nothing wrong 
and that are citizens? How can we ensure that their rights are 
going to be protected and their civil liberties maintained?
    Ms. Saldana. Well, obviously, that is of great concern to 
the American public and to myself, sir, given recent 
revelations. But that is the very reason. I wasn't here at the 
time that the decision was made to withdraw the bid but it is 
my understanding that that is the very reason it was withdrawn; 
so that it can be given greater study, make sure that there 
were safety measures in place, that the information is handled 
properly, that privacy concerns by paramount.
    But I will tell you, again, as an Assistant United States 
Attorney, prosecuting cases with agents, FBI, Homeland 
Security, Education, agents from all Federal agencies, that the 
more information you have with respect to a person who is 
actually in the middle of an investigation not the innocents 
but in the middle of an investigation, it is helpful to the 
investigation to have that.
    So we are going to be balancing both the investigative 
utility as well as the privacy concerns of individuals on 
information we have gathered and possess.
    Mr. Chabot. Thank you. My time is about to expire. Let me 
just conclude by stating there is obviously a lot of skepticism 
about the way the law is being enforced and the fact that it is 
actually not being enforced by this Administration and we 
certainly hope that the Administration will reconsider the way 
it has been enforcing the law.
    I yield back.
    Mr. Goodlatte. The Chair recognizes the gentlewoman from 
Texas, Ms. Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, to the 
the Ranking Member.
    And thank you very much, Director Saldana and particularly 
for your service to the Nation and being an outside Texan. We 
are all very proud of you, delighted to see you sitting before 
us today. And know that you bring a sense of knowledge and 
passion to this position. Let me first of all indicate my 
appreciation for ICE. I have worked with them over the years, 
if I might say, and find them to be commendable and to be 
concerned about the security of this Nation. I think that is 
very important.
    You will find, as you come to Congress, that there are the 
First Amendment rights of members allow them to have different 
perspectives and views, and also representing their 
constituents. And that is what this House represents, this 
Committee represents, and democracy represents. But we also 
have an order of the three branches of government and the 
responsibilities of the President. And your responsibility in 
the compliance with the guidelines of the Administration.
    And so, my first question to you is do accept the concept 
of prosecutorial discretion?
    Ms. Saldana. I do and I have----
    Ms. Jackson Lee. The mike, please?
    Ms. Saldana. I do and I have for the last several years as 
an Assistant United States Attorney and the United States 
Attorney; it is vital. I do know that there were aspects of the 
proposed executive action, which my former department, the 
Department of Justice, opined about and carefully studied with 
respect to the entire scope of the request. And they made 
recommendations regarding parts of it that were not 
appropriate, which were honored----
    Ms. Jackson Lee. But ultimately----
    Ms. Saldana [continuing]. And parts that were.
    As I said earlier, I could not, as a United States 
Attorney, enforce every law in the books. It makes total sense. 
It is rational to say we need to focus our resources.
    Ms. Jackson Lee. Thank you.
    My time is short so I am going to have to go on. With that 
premise then, I think it should be very clear that the present 
court proceedings deal with the President's executive actions. 
Is that your understanding; the state?
    Ms. Saldana. The ones in South Texas have to do with DAPA 
and DACA.
    Ms. Jackson Lee. That is correct.
    And so, they do not deal with the overall order or action 
regarding the use of prosecutorial discretion that ICE can 
utilize. I understand.
    Ms. Saldana. That is true, and I made that very clear to 
the field.
    Ms. Jackson Lee. I think that is a very important point 
because I ask that you make that point over and over again.
    As I understand, I would like to read into the record 
priority one under the Humane Enforcement Policy; deals with 
suspected terrorists, national security threats, persons 
apprehended at the border for enumerated felons. Priority for 
ICE, two, would be persons convicted of three or more 
misdemeanors other than traffic offenses and state or local 
offenses predicated on immigration status. I am reading very 
quickly but--priority three would be persons issued a final 
order of removal after January 1, 2014.
    Does that comply with the sense that you have?
    Ms. Saldana. Absolutely.
    Ms. Jackson Lee. Well then, let me ask these two questions. 
First of all, I had a gentleman, by the name of Mr. Alvarado, 
who was not an enforcement priority yet he was detained in 
October 2014 and removed to Honduras in February 2015. He lived 
in Houston. He had lived here since 2005. He had a voluntary 
return in 2005 to Honduras but came back. He had no deportation 
order, to my understanding. He was being driven by his wife 
when his car was pulled over. He was put into custody. He is 
married to a legal permanent resident; he has a citizen child, 
stepchild, but he was deported.
    I think there is a disconnect between here, in Washington, 
and the appropriate procedures that our ICE officers need to 
use. Tell me what you are doing to make sure that they are 
fully educated.
    My second question is can you tell me what you are doing to 
ensure that detention centers, one I know in the San Antonio 
area in Texas, are hospitable and humane to our families and 
children? And I would appreciate your answers on those 
questions.
    Ms. Saldana. Yes.
    Let me start with the latter. I personally went to visit 
the Dilley Facility outside of San Antonio in Dilley, Texas. I 
have not made it to Karnes or Berks yet but I intend to. I 
observed for myself, and that is the only way I satisfy myself 
that things are as they should be, that our requirements and 
safety measures and humane treatment of folks is satisfied 
there.
    With respect to fully educating----
    Ms. Jackson Lee. And Mr. Alvarado's case, but go ahead.
    Ms. Saldana. And I cannot comment on a specific case.
    Ms. Jackson Lee. I understand. Your staff can take it down.
    Ms. Saldana. But I continue to train. I continue to meet 
personally, either by VTC or personally, with field office 
directors to make sure that these priorities are being enforced 
equally and properly.
    And by the way, on our website we do have a complaint 
process. That, if somebody has, even a detainee, has some 
concern, that they have got a process to go through; even up 
to, I don't encourage this every day, but with respect to 
concerns that can't be satisfied, that they start locally and 
work themselves up.
    Ms. Jackson Lee. Lawyers can then adhere to the fact that 
the executive discretion, prosecutorial discretion, does exist 
and they can raise this with the ICE officers or their clients.
    Ms. Saldana. Yes, that is correct. And I have met with the 
Chief Counsel to make that clear.
    Ms. Jackson Lee. I yield back. I thank the gentlelady for 
her service to the Nation.
    Ms. Saldana. Thank you.
    Mr. Goodlatte. The Chair thanks the gentlewoman.
    The Chair recognizes the gentleman from Virginia, Mr. 
Forbes, for 5 minutes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Madam Director, thank you for being here. As my colleague, 
Mr. Gowdy, said, we hold you in high esteem for your expertise 
for serving in the U.S. Attorney's Office. And this Committee 
works a lot on policy in trying to get policy correct.
    So let me ask you this question: If I have an individual 
that is speeding on our highways, should they be apprehended 
and charged differently if they have lived in the country 
longer than someone else, or if they go to school here, or if 
they have a job, or if they are pregnant, or if they have a 
serious health problem?
    Ms. Saldana. Should they be treated differently? No. That 
officer has discretion to give a ticket or not give a ticket.
    Mr. Forbes. But should they be apprehended and charged the 
same whether they have those conditions or not?
    Ms. Saldana. That should not be a distinction with respect 
to an officer pursuing and issuing----
    Mr. Forbes. He should charge him and apprehend him the same 
way?
    Ms. Saldana. Recognizing, sir, their discretion. Officers, 
police officers have discretion whether to give a ticket or 
not. I have never been the benefit----
    Mr. Forbes. But they have the discretion based upon whether 
or not someone is pregnant to give them a ticket or not? Should 
they not give a ticket if that person is pregnant?
    Ms. Saldana. No one should be treated differently in that--
--
    Mr. Forbes. No one should be treated differently. And is 
that a basic theory of law?
    Ms. Saldana. Yes. We try to be fair and consistent.
    Mr. Forbes. Then tell me why that is different when you 
would suggest that you have prosecutorial discretion? That I 
could enter a blanket order or regulation that would say that 
anyone who was in the country longer or went to school here or 
had a job or were pregnant or had a serious health problem 
would be treated differently if they were speeding on a 
highway. And I think you would object to that but let me go to 
another point.
    We have had testimony before this Committee that, as in 
some of our violent criminal gangs, as many as 85 percent of 
the members are here illegally. Would you agree that if 
somebody was here illegally in this country and they were a 
member of a violent criminal gang that they should be 
apprehended and deported?
    Ms. Saldana. Yes, sir. And that is actually part of 
priority one.
    Mr. Forbes. So you would agree with that.
    Then, with all of the individuals the criminal aliens that 
were released in 2013 and 2014, can you tell me how many of 
those were members of violent criminal gangs or members of 
criminal gangs at all?
    Ms. Saldana. I can't off the top of my head but I am 
certain----
    Mr. Forbes. Do you have that record? Do you have that 
information?
    Ms. Saldana. I am not sure, sir, but I will----
    Mr. Forbes. But you were just telling me, as the Director 
of ICE, that it is a priority to get violent criminal gang 
members out of the country. That is one of your top priorities. 
And yet, you are telling me you don't even know whether we have 
records of how many we released or did not release.
    Ms. Saldana. There may be a way to do it manually, sir. I 
can't----
    Mr. Forbes. But now that is not what I am asking, Madam 
Director. You are coming in here today telling us that one of 
the top priorities you have is getting criminal gang members 
out of the country who are here illegally.
    Ms. Saldana. That is correct.
    Mr. Forbes. But, yet, you can't even tell this Committee 
that you have the data to tell how many of them you released 
back then.
    Ms. Saldana. I can't give you that number. I suspect, 
manually, one can make that search and give you the answer.
    Mr. Forbes. But you don't know whether you can do it.
    Ms. Saldana. Off the top of my head, I can't tell you what 
the number is, sir.
    Mr. Forbes. Madam Director, I am not asking for the number. 
I am asking do you have any way of even telling which of the 
individuals you released in 2013, 2014, are you releasing 
currently, are members of criminal gangs.
    Ms. Saldana. I believe so but it may require a manual 
search and a little time to come up with that number.
    Mr. Forbes. But right now, you can't testify before this 
Committee that, as the Director of ICE, you know of whether you 
have a process of determining the criminal gang members that 
are being released by ICE back into the streets of the United 
States of America?
    Ms. Saldana. I believe that is the case, except I believe 
it would require a manual search. We don't necessarily have 
that but we can pull up.
    Mr. Forbes. If you did the manual search, what would you 
search? How would you find----
    Ms. Saldana. The files.
    Mr. Forbes. The files would necessarily be conflicted----
    Ms. Saldana. If I may finish my answer, sir?
    Mr. Forbes. Sure. Please.
    Ms. Saldana. The files in which the, we refer to them as an 
A-file, that has all the information, immigration information, 
of a particular undocumented immigrant.
    Mr. Forbes. But you are looking back at a criminal record 
that may not show that they were convicted under being a 
criminal gang member. Do you have anything where you are asking 
these criminal aliens before they are being released if they 
were members of a criminal gang?
    Ms. Saldana. We don't just rely on the answer of a 
particular undocumented immigrant.
    Mr. Forbes. But do you even ask?
    Ms. Saldana. We may ask and we will rely on our 
investigative resources to find that out, sir. It is not just 
accepting the word of a person.
    Mr. Forbes. But can you tell this Committee that you are at 
least asking?
    Ms. Saldana. Again, I can't tell you in every case----
    Mr. Forbes. But, Madam Director, my time has run up. It 
bothers me tremendously when as the Director of ICE you come in 
here and tell us one of your number one priorities, you 
basically don't have a clue whether you can do it, you are 
doing it, or how many you are releasing. And that is something 
that frightens all of us.
    Ms. Saldana. I believe I answered otherwise, sir.
    Mr. Forbes. I think the record will show differently.
    Mr. Chairman, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman, recognizes 
the gentleman from Georgia, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you.
    Ma'am, the Karnes County Residential Center is actually a 
privately run, for-profit detention center. Is that correct?
    Ms. Saldana. I believe so.
    Mr. Johnson. And so, it is actually the Karnes County 
Detention Center not the Karnes County Residential Center, 
which sounds a whole lot nicer. But the Karnes County Detention 
Center has been accused of being a place where countless women 
have been raped by male guards. Are you aware of those reports?
    Ms. Saldana. I am aware of those allegations and I am aware 
of the----
    Mr. Johnson. And also, as a residential center, families 
are held in detention. And when I say families, I basically 
mean women and their minor children. That is who is housed at 
Karnes Detention Center; correct?
    Ms. Saldana. Yes. I would like to provide to you, sir----
    Mr. Johnson. I will let you come back in just a second.
    Ms. Saldana. Okay.
    Mr. Johnson. When a mother is put in a medical isolation 
room, the child or her children are assigned to that room with 
her. Isn't that a fact?
    Ms. Saldana. Are you talking about a particular case? I am 
not aware of that. I am not aware of that. I am not aware of 
that.
    Mr. Johnson. Generally, when a woman is assigned to a 
medical isolation room, her child would be assigned to that 
room as per the reports that I will put into the record at this 
point. The mothers and children are allegedly locked in a dark 
room for protesting detention conditions and also that is a 
ThinkProgress article. And also, for the record, I would like 
to tender a New York Times magazine article entitled ``A 
Federal Judge and a Hunger Strike Take on the Government's 
Immigration Detention Facility.''
    Mr. Forbes [presiding]. Without objection.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               __________
    Mr. Johnson. And you are aware of those reports of the 
hunger strike and the woman with the 11-year-old child that was 
placed into a medical isolation unit?
    Ms. Saldana. And the insertion in the New York Times 
article that there is barbed wire at our family facilities, 
which is not the case.
    Mr. Johnson. But in those medical isolation units, those 
units are, or the unit that this woman who had the 11-year-old 
child that was assigned to the room with her, is a cell with a 
bed bolted to the wall and an open shower and an open toilet in 
that room, and is basically a detention jail cell. Isn't that 
correct?
    Ms. Saldana. I am not aware of that incident, sir.
    Mr. Johnson. You are not aware of that?
    Ms. Saldana. I am not aware of that.
    Mr. Johnson. Would it trouble you to know that women and 
children, because the mother participated in what is called a 
fast, others called it a hunger strike but she participated in 
it, and was assigned as a punitive measure to that medical 
isolation unit?
    Ms. Saldana. Is that something you also got out of that New 
York Times article, sir?
    Mr. Johnson. Well, I have received the information from 
Republican as well as Democratic staff who actually took a 
visit within the last 2 weeks to that facility and spoke with 
the woman and the 11-year-old son.
    Ms. Saldana. Congressman, if that is a fact, that disturbs 
me greatly. And I am happy to visit with you regarding a 
specific instance. I cannot, on the record, go into the 
specific facts of individual cases.
    Mr. Johnson. Well, ma'am, you have taken an oath and I 
would like to ask you, pursuant to that oath, that would you 
supply me with the quarterly reports compiled by the detention 
monitoring council's subcommittee per 7.5, subsection 7, of the 
directive titled Review of the Use of Segregation for ICE 
Detainees that was issued on September 4, 2013; as well as a 
list of all facilities designated for heightened review under 
Section 7.5, Subsection 5 of that directive? And also, all 
surveys, audits, reviews, memos, or other reports by ICE OPR, 
ICE ODO, ICE ODPP, DHS, OIG, or DHS CRCL regarding, one, the 
use of segregation in ICE facilities; and, two, the use of 
medical isolation cells in ICE facilities, and also the full 
contents of the Segregation Review Management system, the 
database created by ICE to monitor use of segregation following 
implementation of the directive? Would you be willing to supply 
my office with those copies? And I will send you a written 
request because I want----
    Ms. Saldana. Thank you very much, sir, because I stopped 
writing. I couldn't quite keep up. And included in that IG 
report, I just wanted to mention to you, Congressman----
    Mr. Johnson. You will supply me with those?
    Ms. Saldana. To the extent that they exist. I couldn't keep 
up with the entire list but, if you provide it in writing, I 
will certainly try to run them down.
    Mr. Johnson. Okay.
    Ms. Saldana. And included in that, what I wanted to mention 
to you was the IG report on those Karnes sexual allegations 
that made an investigation and decided that there was not 
sufficient evidence to support those allegations.
    Mr. Johnson. Well, I have heard----
    Ms. Saldana. But I will include----
    Mr. Forbes. The gentleman's time has expired.
    The gentleman from Iowa, Mr. King, is recognized for 5 
minutes.
    Mr. King. Thank you, Mr. Chairman.
    Thank you, Director, for you testimony and I appreciate 
especially the Chairman's remarks about cooperating with the 
Committee prior to this hearing. And I understand that you are 
in a difficult position in this job. I would note the irony 
that one side is angry when you enforce the law, the other side 
is angry when you don't enforce the law. And so, I happen to be 
on the side of the latter.
    But I am curious about a few things here, and one of them 
is I noticed in your written testimony that you have 
participated in high level discussions with Mexican government 
officials discussing opportunities to more rapidly repatriate 
Mexican nationals. And then, it goes on into the interesting 
part: ``I have also met with government officials from 
Honduras, Guatemala and El Salvador where each pledged to do 
our part to stem the tide of citizens of those countries.''
    Okay. I think we understand in this Committee what all that 
means. And I am curious on what you learned because we have 
passed legislation here in the House, I think a couple of 
times, that would require those kind of negotiations to 
establish, I think I will use a term, an expedited return for 
those unaccompanied alien juveniles to the non-contiguous 
countries that I have mentioned are in your testimony.
    Did you see a level of cooperation there that do you think 
it would be possible to negotiate those terms of return for the 
unaccompanied alien juveniles to those countries?
    Ms. Saldana. Well, and actually, I think I mentioned in my 
written statement, if I didn't I was remiss in overlooking it, 
that we have actually in Guatemala and in Honduras initiatives, 
pilot initiatives, in which we have representatives of those 
countries here in order to expedite removal of people from 
those countries.
    Mr. King. Is there anything in statute that prohibits us 
from doing that right now if we can reach that agreement? We 
don't have to wait for Congress to do that, do we?
    Ms. Saldana. I am not waiting on it. We are discussing 
this, as I said. That is one of the things I did early on was 
to go through----
    Mr. King. Whose decision would it be then? Could Secretary 
Johnson then issue a directive that we complete those 
negotiations and begin to return those unaccompanied alien 
juveniles to their home countries?
    Ms. Saldana. We are actually doing that now. We are 
negotiating. We are talking. We are working hard with them.
    Mr. King. Does he have the authority to issue such an 
order?
    Ms. Saldana. Legal authority, sir? I just haven't studied 
that question.
    Mr. King. Okay.
    Then, are you aware of agreement between Guatemala and 
Mexico to provide for expedited transit for Guatemalans who are 
on their way to illegally enter the United States and to grant, 
in Mexico, that 72-hour transit permit?
    Ms. Saldana. I believe there were discussions when I met 
with those countries in February to that effect. Yes.
    Mr. King. And I recall a press release from a press 
conference held between the President of Mexico and the 
President of Guatemala who announced this agreement, and I 
recall the President of Mexico saying they hope to be able to 
complete such agreements also with El Salvador and Honduras. 
Has that come to your attention?
    Ms. Saldana. It has, yes.
    Mr. King. Then, I would ask how do we consider them to be 
cooperative countries if they are cooperating with each other 
to expedite the removal of their own citizens across, through 
Mexico, and illegally enter the United States?
    Ms. Saldana. Well, sir, actually the Mexican authority 
stopping Central Americans from coming benefits the United 
States greatly. I see that----
    Mr. King. I agree with that but if they are giving permits 
for Guatemalans to have 72 hours as long as they are in transit 
to McAllen Texas, I don't call that cooperating with our 
policy. I call that contravening. So are they talking out of 
both sides of their mouths or is there something I am missing 
through the translation in the agreement?
    Ms. Saldana. I can't say that. I can't say that they are 
talking. What I saw in Guatemala, Honduras, and El Salvador 
were sincere efforts to try to help get their people back. The 
First Lady of Guatemala looked at me very closely and said, 
``Please, until we do, take care of our children.''
    I took that to heart because I think it was a sincere 
comment. And that is what we try to do.
    Mr. King. Of course. We are taking care of their children. 
We are flying them to places like Guatemala City into the 
United States now, completing the human trafficking. I find it 
ironic that just a year and half ago, December 2013, when Judge 
Hanen wrote an opinion that there was a coyote who had smuggled 
a 10 year-old girl into the United States. They were 
interdicted. They prosecuted the coyote for human trafficking 
and ICE delivered the 10 year-old girl to her birth mother in 
Virginia. And to quote from the opinion of Judge Hanen, ``thus 
completing the crime of human trafficking by ICE.''
    Now, we are doing it hundreds and thousands of times and 
buying plane tickets to do that. That is a bit breathtaking to 
me and I think it has got to be very difficult to take an oath 
to uphold this Constitution and support the rule of law when 
you are watching above you at being subverted in the fashion 
that it is. And I will give you an opportunity to correct me on 
my analysis.
    Ms. Saldana. Sir, we also have a humane approach to the law 
in the United States, unlike many countries. That is why I am 
so proud to be a member of this country. And, as part of that, 
if there is a situation, I am not particularly familiar with 
this one that you are talking about, where a family is reunited 
who doesn't present a risk to public safety or a risk of 
flight, than I agree with that approach.
    Mr. King. I will just say our policy reunites them in their 
home country. Thank you and I yield back.
    Mr. Forbes. The gentleman's time has expired.
    The gentleman from Puerto Rico is recognized for 5 minutes.
    Mr. Pierluisi. Thank you, Chairman.
    Good morning, Director Saldana. Welcome to the Committee.
    Ms. Saldana. I like the way you say that.
    Mr. Pierluisi. I am sorry?
    Ms. Saldana. Saldana. I like the way you say that.
    Mr. Pierluisi. Saldana, yes. [Laughter.]
    Understandably, a lot of the questions so far in this 
hearing have involved ICE's mission to enforce our Nation's 
immigration laws. I want to discuss ICE's equally important 
mission to disrupt and dismantle drug trafficking 
organizations. As part of this mission, I know that ICE works 
in partnership with other DHS component agencies like CBP and 
the Coast Guard, DOJ component agencies like the FBI and DEA, 
and state and local law enforcement. You are an important 
player in a whole of government effort to combat drug 
trafficking and the violence associated with it.
    In January 2012, I met with your predecessor John Morton. 
Puerto Rico had just experienced the most violent year in the 
U.S. territory's history. In 2011, there were 1,136 homicides 
in Puerto Rico. That is the equivalent of over three murders a 
day every day. It was roughly the same number of annual 
homicides as Texas, which has a population seven times greater 
than Puerto Rico's.
    As my colleagues can attest, having heard me question 
senior official after senior official who have appeared as 
witnesses before this Committee, I have been on a campaign 
since 2009 to persuade Federal law enforcement agencies to 
increase the level of attention and resources that they 
dedicate to Puerto Rico, so that these resources are 
commensurate with the threat. The reality was that the level of 
attention and resources from the Federal Government was, and I 
emphasize the word ``was,'' clearly deficient. And too often, 
my constituents were paying the price with their lives.
    Starting in late 2012, however, the tide began to turn. 
Under the leadership of Secretary Napolitano, DHS component 
agencies began to substantially increase the resources they 
assign to Puerto Rico. For example, the Coast Guard has 
dramatically increased the number of hours its planes and 
cutters spend conducting counter-drug operations around Puerto 
Rico, and will completely replace its current fleet of cutters 
with faster, more modern vessels by mid-2016.
    Moreover, in 2013, you agency, ICE, sent 30 additional 
agents to Puerto Rico where they arrested about 900 violent 
criminals and seized a great deal of illegal narcotics and 
weapons. In addition, DHS assigned to San Juan a Border 
Enforcement Security Task Force; a multi-agency team of Federal 
and local officials designed to dismantle criminal 
organizations.
    Furthermore, CBP repaired the counter-drug radar system in 
southern Puerto Rico, which had been destroyed in 2011. Along 
with Congressman Mike McCaul of Texas, I led the successful 
effort in Congress to save the aerostat program from 
elimination and to transfer the program from DOD to DHS. 
Moreover, TSA has enhanced searches of luggage, parcels, and 
cargo transported on flights between Rico and the U.S. mainland 
for illegal narcotics and weapons.
    Finally, this year, the Office of National Drug Control 
Policy within the White House published the first-ever 
Caribbean Border Counternarcotics Strategy as required by 
Congress.
    Collectively, these efforts have produced remarkable 
results. In 2014, there were 681 homicides in Puerto Rico. That 
is 40 percent lower than in 2011, 30 percent lower than in 
2012, and nearly 25 percent lower than in 2013. You and your 
colleagues at DHS should feel very proud of this 
accomplishment, because you played a major role.
    Nevertheless, as I am sure you would be the first one to 
say, we cannot relent. Rather, we must sustain and build upon 
this hard-earned success. Puerto Rico still has a murder rate 
that is far higher than any U.S. state or the District of 
Columbia, with an average of roughly two homicides each day.
    So, I would like to give you an opportunity to tell the 
Committee what ICE is currently doing to fight drug trafficking 
and related violence in Puerto Rico, our Nation's Caribbean 
border, and what plans ICE has for the future.
    Ms. Saldana. Well, you have identified, I think I mentioned 
earlier, some of the HSI successes in this regard including 
32,000 criminals and 1.3 million pounds of narcotics. A 
substantial part of what we do in HSI, because we are focused 
on transnational criminal investigations, is in the drug area. 
I don't have the specifics with respect to Puerto Rico, I can 
certainly share those with you, but those outlying posts are of 
great concern to me because obviously it is harder to manage.
    But under the Secretary's Unity of Effort Initiative, you 
have mentioned the Coast Guard, you mentioned ICE, HSI in 
particular, obviously Border Patrol, all of these people and 
Customs and Border Protection, all of us work together pursuant 
to the secretary's direction to try to make sure that these 
transnational drug-smuggling gangs are not successful. And we 
have had a number of operations in that regard; Operation 
Coyote, Operation Identity Crisis. All of these operations that 
go to focus on these of kinds of smuggling operations of people 
and things.
    Mr. Labrador [presiding]. Thank you. The gentleman's time 
has expired, and I recognize the gentleman from Arizona.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank you, Director Saldana, for coming to be with us 
this day. I know that your job is a difficult one and one that 
I would find formidable beyond words.
    I also know that a lot of they focus of the hearing has 
been the constitutional questions of the President's actions. 
And for a moment, if you could--and I understand that you have 
suggested that perhaps his actions were within the 
constitutional purview. So for a moment, let us put that aside.
    You took an oath to uphold the constitution. That was part 
of your oath. If there were a situation from this 
Administration or from any other Administration that you found 
yourself serving and there was an executive order that you were 
convinced in your heart was clearly unconstitutional, which 
would hold your commitment? Would it be your oath of office to 
uphold the constitution or would it be to subordinate the 
constitution to that executive order given that the President 
would be essentially your boss? How would you deal with that 
subject if it were circumstances where it was clear in your 
mind that the directive from the President was 
unconstitutional?
    Ms. Saldana. Well, that is not a difficult question. I mean 
I have always, in both my U.S. Attorney, my Assistant U.S. 
Attorney, and my director oath, have sworn to uphold the law, 
and if it were a matter as clearly as you say, that something 
was clearly unconstitutional, I can't be apart of that. If you 
are implying that that is part of executive action, which I 
think you set aside, I don't agree that that is 
unconstitutional but with respect to your general question, of 
course I would.
    Mr. Franks. Well, I appreciate your answer to that and I 
think that is an honorable answer. And I hope I would have 
answered the same way in your circumstance. And I know that 
there is the disagreement, you know, given and that is the 
issue at hand. But you understand that some of us, given that 
the President said 22 times himself that what he was doing was 
unconstitutional, I think he has put you in a very difficult 
position. And I say that sincerely. I think he has, if I were 
in your place, I would feel in an uncomfortable position. 
Article 1, Section 8 calls for the Constitution specifically, 
specifically bestows on Congress the duty to create immigration 
law. And this president has rewritten that and I think that it 
puts you in a very awkward position. And just for your sake, I 
am not going to ask you to even respond to that because I don't 
know what I would do if I were you. But it seems clear to me 
that he has put you in an awkward position. Awkwardness being a 
very significant understatement.
    The President also said, and I know this question was 
proffered earlier, but if somebody is working for ICE and they 
don't follow this policy, there is going to be consequences for 
it. Have you enforced that? I mean are there consequences for 
not following that policy?
    Ms. Saldana. There are consequences for not following the 
rules of an employee's status with the agency. I have a whole 
manual on this.
    Mr. Franks. What would the consequences be if someone in 
the position that was required to follow through with the 
President's directives? And, again, we will set the 
constitutional issue aside for a moment. Certainly, if the 
President has done that, I guess we could do that. What would 
be the consequences for doing that?
    Ms. Saldana. Well, whether it is that directive or 
assaulting an employee in the office or not abiding by some 
other rule or policy, the range of punishment can range from 
anything to a verbal meeting where you counsel that person to 
ultimately what is available to any employer, and that is 
termination.
    Mr. Franks. So, in other words, there are employees that 
work with you that are potentially subjected to termination for 
not following the President's directive in this particular 
case?
    Ms. Saldana. For not following any policy or directive or 
rule of employment----
    Mr. Franks. Yes, which includes the President's directive. 
All right. I understand.
    The difficulty of your position becomes even more apparent, 
I think. Is it true that under the Administration's new 
guidelines that aliens, unlawful aliens, I should say, has to 
be convicted three times for three separate incidents in order 
to be deemed a priority for removal?
    Ms. Saldana. They are all categories. It can be one serious 
offense; it can be three misdemeanors if that is what you are 
talking about. That is one of the elements in this card.
    Mr. Franks. In this case, you are saying that potentially 
it is not true. In other words, if they are convicted of a 
serious issue, that could be basis in and of itself to be 
required or deemed a priority for removal?
    Ms. Saldana. Yes, sir.
    Mr. Franks. Okay.
    Ms. Saldana. The offenses are listed in here.
    Mr. Franks. Okay.
    Is it also true that border crossers, who came to the 
United States after January 1, 2014, illegally, or those who 
overstayed the terms of their visas and fugitives from that law 
are not required to be processed for removal through the 
program?
    Mr. Labrador. The gentleman's time has expired, if you 
could just answer the question.
    Mr. Franks. Quickly.
    Ms. Saldana. 2C addresses recent border crosses, sir. 2C, 
would you like me to read it?
    Mr. Franks. Please.
    Ms. Saldana. Aliens apprehended anywhere in the U.S. after 
unlawfully reentering or entering the United States and who 
cannot establish the satisfaction of an immigration officer 
that they have been physically present in the United States 
continually since January 1, 2014. And I also want to remind 
this Committee that there is a general provision with respect 
to these priorities that give an officer flexibility in making 
a decision, whether someone fits within the priorities and 
should not be removed, should not be put in removal 
proceedings, or does not fit and should be because of their 
public safety concerns.
    Mr. Franks. Thank you, Mr. Chairman.
    Thank you.
    Mr. Labrador. Thank you.
    I will now recognize the gentlelady from California, Ms. 
Chu.
    Ms. Chu. Thank you.
    Director Saldana, the recent expansion of family detention 
for approximately 80 detention beds to now more than 2,400 beds 
at the new Dilley Detention Center is truly alarming. A vast 
majority of these women and children escaping the northern 
triangle region are fleeing domestic and/or gang violence and 
abuse. In 2011, El Salvador had the highest rate of gender-
motivated killing of women in the world followed by Guatemala 
and the Honduras. These women are escaping some of the most 
dangerous countries in the world to seek protection in the U.S. 
and, instead, they and their children face prolonged detention 
while they fight their asylum claims.
    In my view, there is no way to detain families humanely. 
When I first learned that the average age of a child in family 
detention is 6 years old and that there are even babies and 
toddlers being detained, I was truly shocked. As a 
psychologist, I know the mental health concerns that children 
and families in detention face.
    Detention in jail-like facilities re-traumatizes victims of 
violence, and children in particular. Reports show that 
children in detention experience weight loss, gastrointestinal 
problems, and suicidal thoughts. In fact, Doctor Luis Zayas, 
Dean of Social Work at the University of Texas Austin, 
interviewed several families at the Karnes Residential Center 
and found that mothers and children showed high levels of 
anxiety, especially separation anxiety for the children, 
systems of depression, and feelings of despair. Children showed 
signs that detention had caused developmental regression such 
as reversion to breast feeding and major psychiatric disorders 
including suicidal ideation.
    Dr. Zayas further states in his affidavit that ongoing 
stress, despair, and uncertainty of detention significantly 
compromises the child's intellectual and cognitive development 
and contributes to the development of chronic illnesses in ways 
that may be irreversible. These very serious psychological 
concerns combined with the many due process concerns, like 
prohibitively high bonds and difficulty accessing lawyers, 
makes family detention a truly, truly troubling institution.
    In fact, it runs contrary to the 1997 Florida Settlement 
Agreement regarding, at that time, INS's detention of children. 
The agreement said that juveniles should be held in the least 
restrictive setting appropriate to their age and special needs, 
and generally in a non-secure facility licensed to care for 
dependent minors. And it said that detaining children in 
prison-like facilities that are both secure and unlicensed runs 
contrary to the very heart of the Flores Agreement. In fact, as 
we speak, Flores Class Council petitioned the court to 
reinforce the agreement in light of the expansion on family 
detention.
    Director Saldana, given the concern regarding the mental 
and physical health effects on children in prolong detention, I 
urge you to adopt a family detention policy that minimizes the 
lengthy detention of children, and use more humane alternatives 
like alternatives to detention. I also want say that my staff 
attended a live bond proceeding for a mother and her 5-year-old 
child who had been sexually assaulted. The child was suffering 
from severe psychological distress while being detained at 
Artesia including nightmares and bed-wetting. The family had 
already been detained 3 months before the bond hearing and yet 
the 2014 priorities memo from DHS states that field office 
directors should not expend detention resources on aliens who 
are known to be suffering from serious physical or mental 
illness.
    So how do you reconcile detainee mothers and children with 
such serious physical and mental health illnesses in light of 
the directives in the priorities memo?
    So if you could answer these two questions of the lengthy 
detention of children as well as the detention of children with 
mental illness.
    Ms. Saldana. Well, I am not going to comment on the 
litigation but there are two separate issues. One is 
unaccompanied children, which who we do not detain, and those 
that are coming over with families.
    I said earlier that I wanted to satisfy myself that our 
detention facilities for families were operating securely, 
safely, and humanely. So that is why I visited Dilley back in 
February just a month after I came onboard. And I found that to 
be the case. In fact, I was very impressed with two teachers I 
met for these children who are there in the facility and the 
openness of the facility. And these teachers who I visited with 
whose commitment and love, and mind you I was a school teacher 
at one time, whose commitment and love for their children, the 
children that they were educating, was very evident.
    The facility was wonderful and, actually, the technology 
they had for these kids was incredible. I am not sure I could 
operate some of the interactive items that they have. But that 
is an issue of great concern to us, ma'am. Under that order 
that we are under with respect to family detention, we have 
reviewed all of those people that are members of that class, a 
number of those families have been released.
    You know, one of our problems is the immigration courts in 
trying to get a resolution and a decision based on credible 
fear or whatever there is to move on with respect to these 
families and have them know what is going to happen with them. 
And that is a matter of--I think the last number I saw was 
something like 480,000 backlog cases in the immigration courts 
that are under the Department of Justice. And so I urge this 
Committee, to the extent there is anything you can do to help 
those courts, to get more judges that would help us with our 
disposition and our request for 2016 for more lawyers to assist 
us to get these people through the process so they don't have 
to be waiting or be detained.
    Mr. Labrador. Thank you. The gentlelady's time has expired.
    I now recognize the gentleman from South Carolina and 
Chairman of the Subcommittee on Immigration.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Madam Director, I want to thank you for your service as a 
prosecutor and as a schoolteacher. I am biased toward both. So 
I hope that our questioning does not reflect that bias but I do 
thank you for doing a very--both of those jobs are incredibly 
hard. I thank you for your service.
    You have cited the Zadvydas case and that explains 8 
percent of the releases. How about the other 92 percent?
    Ms. Saldana. I am sorry, sir. Eight percent of any 
releases?
    Mr. Gowdy. Eight percent of the 30,558 convicted criminal 
alien releases were under the holding of Zadvydas.
    Ms. Saldana. That is in 2014.
    Mr. Gowdy. Right.
    Ms. Saldana. Yes, sir.
    Mr. Gowdy. So there are 92 percent were not.
    Ms. Saldana. No, another 10,000 or 35 percent were under 
orders from the immigration courts that we have to comply with.
    Mr. Gowdy. All right.
    I want to back up and ask you to put on your oval hat. 
Prosecutorial discretion, what are the limits of prosecutorial 
discretion?
    Ms. Saldana. On a situational basis, sir, I think you are 
very familiar with the process where you kind of have to decide 
can you take a fraud case with a million-dollar loss which is 
substantial to many victims or do you have to limit it to cases 
above 5 million: It depends on resources and the safety issues 
in your specific community.
    Mr. Gowdy. Right, and there would be declination levels 
based on the amount of loss, and there would be declination 
levels based on drug amounts, and bank robberies could either 
go state or Federal; usually depending on how good the case 
was. But immigration cases can't go state or Federal. They can 
only go Federal.
    So you mentioned in your testimony that you counted 3,000 
statutes that you were responsible for enforcing as the United 
States Attorney. How many of those 3,000 did you announce ahead 
of time that you were not going to prosecute anyone under that 
particular statute?
    Ms. Saldana. Announce it to the general public?
    Mr. Gowdy. Ahead of time.
    Ms. Saldana. No, I didn't do that.
    Mr. Gowdy. Right.
    Ms. Saldana. I think many people knew what they were 
somehow. You know, you can't limit everybody. We shared those 
priorities with the Federal agencies that we work with.
    Mr. Gowdy. Sure, but again, you always have the recourse of 
going through the state. The state can vindicate its--I mean 
Texas has narcotic statutes. Texas has fraud statutes, bad 
checks statutes, so there is always a safety net if it didn't 
meet your declination level, the state could step in.
    Ms. Saldana. That is correct.
    Mr. Gowdy. And I am stunned, and I am sure you may be too. 
I don't want to put words in your mouth. You worked with state 
and local law enforcement as a prosecutor. Right?
    Ms. Saldana. Yes, sir.
    Mr. Gowdy. And you would have worked with them in the full 
range of cases from child pornography to OCDETF cases; you name 
it. There is a state and local officer at the table with 
Federal officers. Right?
    Ms. Saldana. That is absolutely correct.
    Mr. Gowdy. So why are my colleagues on the other side of 
the aisle so resistant to giving state and local law 
enforcement officers any role at all in immigration?
    Ms. Saldana. To the extent they are here, I guess you could 
ask them. I am not sure I can answer for anybody else.
    Mr. Gowdy. Well, in their defense, I will give you the 
excuses that I get. That the statute is too complicated. That 
you can't possibly expect state and local law enforcement 
officers to understand the complexities of our immigration law, 
as if DUI laws are not also complex or RICO.
    Ms. Saldana. I can't speak to that.
    Mr. Gowdy. Well, the state and local law enforcement 
officers you work with, did you think that they were capable of 
understanding the complexities of immigration law?
    Ms. Saldana. I am sorry. No, that someone on the other side 
of the aisle has that view; I don't know that.
    Mr. Gowdy. Well, they do.
    Let me ask you this. Prosecutorial discretion, does it 
apply in all categories of law? You know, some laws require you 
to do something like register for selective service, some 
forbid you from doing something like possession of narcotics, 
and some laws, for instance, Congress could make you issue us a 
report. Are you able to exercise prosecutorial discretion in 
all three of those categories of law?
    Ms. Saldana. Well, I certainly can with respect to the 
first one.
    Mr. Gowdy. Right.
    Ms. Saldana. I know you would be on my case if I did with 
respect to the third one. So I would say no. And I can't 
remember what your second one was.
    Mr. Gowdy. The laws that force you to do something; 
register for selective service.
    Ms. Saldana. I mean, I don't enforce that law, registration 
for selective service.
    Mr. Gowdy. I know. You are a smart lawyer and you have a 
broad background. I really, all politics aside, I think it is 
important that our fellow citizens understand whether there are 
any limits to this doctrine of prosecutorial discretion 
because--my time is up and I know that the gentleman from Idaho 
is going to gavel me in just a second.
    But there is a big difference between you exercising your 
discretion not to do a $20,000 fraud case in Texas and your 
decision to confer benefits on that same group. Those are two 
entirely separate legal concepts. And regardless of who is in 
the White House and regardless of what job you and I have, I do 
think it is important that we have some bright lines so people 
understand what the limits of this thing we call prosecutorial 
discretion is.
    And with that, I would yield to the gentleman from Idaho.
    Mr. Labrador. Thank you very much.
    And I now recognize the gentlelady from Washington.
    Ms. DelBene. Thank you, Mr. Chair.
    And thank you, Director Saldana, for being here with us 
today.
    Many of my colleagues have talked about the terrible 
conditions in family detention camps and in detention centers. 
We have a detention center in my region in Washington State, 
the Northwest Detention Center in Tacoma. I understand that 
currently in the middle of negotiating the terms of a contract, 
and it has had to be extended. The negotiations have had to be 
extended twice now. The firm deadline to wrap up is now the 
23rd of this month. That is my understanding. There has been 
very little transparency in these negotiations according to 
some estimates. American taxpayers are on the hook for $300 a 
day per detainee with all that money going to private prison 
companies.
    So why is there so little transparency in the negotiations 
like this that are taking place across the country? And are you 
doing anything to open up the process so we can see what is 
happening?
    Ms. Saldana. I am not familiar exactly with that. I can 
certainly give you some more background after this hearing with 
respect to that particular negotiation. But no, we do want to 
have transparency.
    You know there are parties to a negotiation and usually it 
is up to those parties to come up with the final terms. But I 
will tell you that we do seek, through all our meetings with 
all of our stakeholders, whether they are in law enforcement or 
non-governmental organizations or others, their views on how 
things can be improved. And I certainly am intending to--I hope 
I can get out there but I want to get out to more facilities to 
make sure, and I think we have communicated pretty clearly to 
folks that are doing those negotiation, to make sure that we 
are doing them in a way that ensures security but also humane 
treatment of individuals; whether they are documented or not.
    Ms. DelBene. If you have other information that you are 
able to give me, I would greatly appreciate it. And if you are 
able to come out to Washington State and visit the facility, we 
would appreciate that too.
    Ms. Saldana. Thank you.
    Ms. DelBene. So that you can have that direct experience.
    Ms. Saldana. I would actually like to do that.
    Ms. DelBene. As a follow-up, there was an October 2014 GAO 
report that I requested, with a number of colleagues, 
identified three areas where ICE is falling short in tracking 
and managing detention costs and expenditures. The three areas 
were, one, collecting and maintaining data; two, ensuring cost 
is considered in placing aliens in detention facilities; and 
three, preventing improper payments to two detention facilities 
operators.
    So do you agree that there are improvements that can be 
made in this area? And if so, what steps are being taken to 
improve?
    Ms. Saldana. I always think that we can be more efficient. 
I have preached that since I have joined the agency. That we 
need to look for efficiencies because as we well know funds are 
not guaranteed from year-to-year as we have experienced first-
hand at the department. But know we are looking at all of those 
things. We are looking to make sure that costs are allocated 
properly, we have got staffed that has been trained in order to 
look for that specifically, and we do periodic audits of those 
contracts.
    And I am not familiar with the report you are speaking of. 
I would like to read it, also to make sure that we have 
addressed those areas you have identified.
    Ms. DelBene. Okay. And if we could follow-up on that too, I 
would also appreciate that.
    And, you know, there are a number of counties in my state 
of Washington including King County, our largest county, that 
have firmly adopted policies to ignore certain ICE detainer 
requests. And so, I know you have talked about this a bit 
before, but I was wondering if you could explain your views 
regarding whether states and localities should be forced to 
comply with ICE detainers.
    Ms. Saldana. We are in the middle, as you know and as I 
indicated earlier, of a cross-country tour of those 
jurisdictions that have refused to work with us. We are trying 
to assure people, we are looking at priority enforcement not 
just general undocumented immigrant enforcement. We are looking 
at requests. We are not asking anyone to detain someone, as we 
did before, beyond the term of their local jurisdiction 
sentence. We are working to identify the areas we can all agree 
on; murderers, you know, the sexual assaulters, those folks 
that present a danger to the community based on all of the 
facts and circumstances pertaining to a case.
    It is a challenging job, presents opportunities for us to 
visit with our local and state officials. And not only them, 
but non-governmental organizations to help us allay their fears 
and assure them that PEP is different. PEP is different, and we 
are trying to work with communities to do it in the best way 
for that specific community.
    Mr. Labrador. The gentlelady's time has expired.
    Ms. DelBene. Thank you.
    Thank you, Mr. Chair.
    Mr. Labrador. Thank you and I will recognize myself.
    Director Saldana, it is great to have you here today. I 
understand how hard you work and the work that you have is very 
important. I was an immigration lawyer before I came to 
Congress and I actually worked representing aliens who are in 
the United States without documentation. So I worked a lot with 
your agents.
    How many agents does your agency have?
    Ms. Saldana. On the ERO side, about 6,000. About another 
five on the HSI side, I believe.
    Mr. Labrador. So about 11,000 total.
    Ms. Saldana. Agents.
    Mr. Labrador. Agents.
    Ms. Saldana. Yes.
    Mr. Labrador. Okay.
    Ms. Saldana. Our officers.
    Mr. Labrador. Now you are saying that you are here to 
enforce the law. Is that correct?
    Ms. Saldana. Yes, sir.
    Mr. Labrador. Yet, you spend most of your time explaining 
to us why you don't need to enforce all of the laws, which 
seems really interesting to me. You go to the analogy of fraud 
cases. When you were U.S. Attorney, you would have decided that 
maybe a one million-dollar fraud case is not a good thing to 
pursue because of your resources but a five million-dollar 
fraud case would be something that would be worth wild 
pursuing. Is that correct?
    Ms. Saldana. That is one example.
    Mr. Labrador. That is one example so let us use that 
example. What would have happened to the crime in your area if 
you would have announced that anything between zero and $5 
million in fraud you would not be enforcing as a Federal agent, 
as a Federal officer?
    Ms. Saldana. And again, I use that as an example.
    Mr. Labrador. But it is a great example.
    Ms. Saldana. Well, we would work to try to find a local 
jurisdiction that might take the case, but they are strapped as 
well.
    Mr. Labrador. But what if you had the sole authority as a 
U.S. Attorney to enforce the law regarding fraud? We know that 
is not the case but if that was the case, that as a U.S. 
Attorney, you had the sole authority to enforce the law in that 
area and that region that you are covering, what would happen 
to the fraud rate in that region if you announced publicly, 
that between zero and $5 million in fraud, you are no longer 
enforcing?
    Ms. Saldana. I presume there might be more activity in that 
regard.
    Mr. Labrador. You would presume or doesn't your experience 
tell you that it will be a fact? That there would be more 
activity in the commission of fraud between zero and $5 
million.
    Ms. Saldana. Using that analogy, I would say so.
    And let me just correct something. I am sorry. It is very 
hard for me to let things like that go by. I have not spent my 
time expounding on the reasons why executive action is a good 
thing or not a good thing. I can respond to your questions. 
That is all I am doing here.
    Mr. Labrador. That is fine but that is what you have spent 
most of your time doing. And my concern is that that is exactly 
what this Administration has done. They have told the people 
from other countries that there is a limit. There is a 
threshold that they are not going to enforce the law. In fact, 
you just showed us a card. Can you show me that card again?
    Ms. Saldana. Sure.
    Mr. Labrador. That card is what you use. Can you imagine if 
you had a law enforcement agent in your area that decided to 
have a card like that about fraud? And on that card about fraud 
it would say that no case below $5 million would be enforced in 
that area, and that every time they arrested somebody with 
fraud, they were taking that fraud card out, that card out, 
showing that these crimes are no longer going to be enforced by 
the law. You know what would happen in that area. The number of 
fraud cases would go up. The number of people that are 
committing fraud would go up. The number of people who would 
think that they can get away with fraud would go up. Would you 
not agree with that?
    Ms. Saldana. Yes, except you are talking about criminal 
activity in fraud and you are talking about a civil enforcement 
system in the immigration laws.
    Mr. Labrador. But what if fraud was just a civil activity, 
would the number of civil activities go up? A civil violation 
is still a violation of the law, whether it is a criminal 
activity or not, it is still a violation of the law.
    Ms. Saldana. That is true but I am worried about the impact 
on public safety. A civil violation is not the same as a 
criminal violation.
    Mr. Labrador. So you are saying that the United States is 
now safer because we are allowing more people to come into the 
United States illegally. Is that what you are saying?
    Ms. Saldana. I disagree with the premise.
    Mr. Labrador. But that is what you just said. You just said 
that you are worried about the safety of the community. I am 
worried about the safety of the community.
    One last point. You have said several times that Congress 
has extended due process to the people that are here without 
documentation. Is that correct?
    Ms. Saldana. Yes.
    Mr. Labrador. And you are aware that the INA Sections 235, 
238, and 241 explicitly state when we should have expedited 
removal of people that are here without documentation. Are you 
not aware of that?
    Ms. Saldana. Yes.
    Mr. Labrador. So that is what you should be doing.
    And one last question. It is really important. I keep 
hearing about all these stories about what is happening in all 
these detention facilities. Would you not agree that if we did 
expedited removal, if we actually took care of the law, if we 
actually were enforcing the law, that these families would not 
be held in detention for a long time? We would be able to 
expedite their cases; we would be able to figure out who should 
be here, who shouldn't be here, and they could go back to their 
home countries and actually live in a better environment than 
in a detention facility. Would you not agree with that?
    Ms. Saldana. I agree that we need to prioritize and that 
the families are not, in general, going to create a public 
safety risk.
    Mr. Labrador. Not in general.
    Ms. Saldana. No.
    Mr. Labrador. So we should allow, then, any fraud under $5 
million. Thank you very much.
    Ms. Saldana. Our decisions are on a case-by-case basis, 
Congressman.
    Mr. Labrador. I don't believe that they are. They are not 
on a case-by-case basis. You just showed me the card and that 
is not a case-by-case basis. You are deciding where a whole 
class of people should stay in the United States and, frankly, 
the people who work under you are not happy about that 
decision. They are not happy with what the President decided to 
do and it is unfortunate that a law enforcement officer would 
come here and testify before this Committee to say that it is 
okay to allow people to violate the law whether it is civil or 
criminal. And I am done with my time.
    Thank you very much.
    Ms. Saldana. That is a misrepresentation of my testimony.
    Mr. Labrador. We now recognize the gentleman from Illinois, 
Mr. Gutierrez.
    Mr. Gutierrez. Thank you very much.
    Welcome, Director Saldana, and I thank you. I have been 
listening to the testimony up in my office that you presented 
here today.
    And I guess I am very interested in this DHS civil 
immigration enforcement priorities, this card. So you say you 
carry this card with you?
    Ms. Saldana. Yes.
    Mr. Gutierrez. Has it been entered into the record? The 
card?
    I would like to officially enter the card. And who has this 
card with them?
    Ms. Saldana. All our officers that are out there making 
these decisions.
    Mr. Gutierrez. All of your officers. So all of your ICE 
agents have this card with them?
    Ms. Saldana. Generally.
    Mr. Gutierrez. And it states the priorities of the 
Administration.
    Let me ask you something. Does the lawsuit in the Fifth 
Circuit have any implication in terms of your ability to carry 
out these enforcement priorities?
    Ms. Saldana. The one in south Texas deals only with 
expanded DACA and the initiation of DAPA.
    Mr. Gutierrez. It only has an impact on expanded DACA and 
DAPA.
    Ms. Saldana. And that is my sister agency, Citizenship and 
Immigration Services.
    Mr. Gutierrez. And that is your sister. So it doesn't have 
any impact on these priorities.
    Ms. Saldana. Not on enforcement.
    Mr. Gutierrez. And these are the priorities that were 
issued by the Secretary of Homeland Security on November 20 of 
last year?
    Ms. Saldana. Yes, sir.
    Mr. Gutierrez. So those are still in place?
    Ms. Saldana. Yes, sir.
    Mr. Gutierrez. And you are carrying them out.
    So a couple of things. Number one, there is concern among 
those of us that have advocated for a changing of the 
priorities and then thankful for the changing of the 
priorities. In terms of making sure that there is a clear line 
between ICE and immigration and local police departments. We 
understand that you have a new program that you have yet to 
unveil. PEP, I think you are calling it. We look forward to 
that program.
    I just want to state for the record: I think if somebody is 
selling drugs, somebody is gang-banging, somebody is out there 
murdering, somebody is doing harm, somebody is creating or 
committing a serious felony, I think we should just lock them 
up, give them a fair trial. But, if he is found guilty, 
sentence him, jail him, and, as soon as he has finished his 
jail time, deport him immediately from the United States of 
America.
    Now that is very different than if I am driving my children 
to school, I have been here on extended period of time, they 
are American citizens, and had a tail light out; which 
unfortunately Secure Communities and many local law enforcement 
departments were using. They were using Secure Communities as 
simply another way of going out and taking their immigration 
policies locally and saying, ``Well, we are going to arrest 
everybody that we know lives at this trailer park that probably 
is undocumented and works in this community.''
    And then, hand them over to you without any discretion.
    So I am happy to hear the clarifications you made before 
and the clarifications you have made today in terms of making 
sure that there is a difference and that local jurisdiction--
because, many of my colleagues on the other side of the aisle 
will always say that the experiments of democracies are always 
best conducted at the local level of government.
    Well, at local level of government in Chicago and 
throughout jurisdictions in the United States of America, we do 
not want immigration policy carried out by our local police 
department. We think that that creates a division between the 
population and their safety and their security and the police 
department's ability to be able to carry out. When they say 
serve and protect, we want them to know that it is to serve and 
protect.
    So I am very happy to see that you brought this list of 
priorities that each of the agents, because a group of us last 
week put out this Family Defender Toolkit that we are issuing. 
People can download it from my website and from the websites of 
other Members of Congress. And at the bottom, it says, and you 
can tear this out, it says, ``Do not deport me because I am 
eligible for DACA or DAPA.''
    And then we put, and we give all of the things that people 
should put together just in case, because I think this is 
wonderful. You take the Gutierrez Toolkit on the one hand and 
you put the birth certificates of your American citizen 
children, for example, and you put your work history and you 
put your VISA or your ID from your country, and if you get 
stopped by one of the agents, he looks at this. You have got 
the information, you have put them together, and you are not a 
priority for deportation.
    I think that is the kind of discretion we should be using. 
Now, again, just so that we don't get confused, if you are 
driving your car and you are drunk, you go to jail and you get 
deported. If there is a tail light out and you are taking your 
children to the emergency room because they are sick, then you 
should be able to proceed if you can prove that you are not a 
threat to this society and not a threat.
    I will just end with this and I thank the gentlewoman for 
being----
    Look, Director Saldana, you have got a tough job. You have 
got to keep the criminals at bay but, at the same time, you 
have to have an immigration policy that protects American 
families from the devastating effects of our broken immigration 
system. And I thank you for your testimony and for your 
incredible service to our Nation as a U.S. Attorney and, today, 
as the Director of ICE.
    Mr. Labrador. Thank you. The gentleman's time has expired.
    I recognize the gentleman from Florida.
    Oh, sorry, Mr. Gohmert.
    Mr. Gohmert. Thank you.
    Thank you, Director, for being here.
    On November 20, Judge Andrew Hanen, I know you are familiar 
with the case and the order, but he said, ``This temporary 
injunction enjoins the implementation of the DAPA program and 
to the three expansion's additions to the DACA program, also 
contained in the DAPA memorandum.'' He said, ``It does not 
enjoin the previously instituted 2012 DACA program except for 
the expansions created in the November 20, 2014 DAPA 
memorandum.''
    There was an advisory, a DHS advisory, that said, and is 
dated March 3, specifically between November 24, 2014 and the 
issuance of the court's order USCIS granted 3-year periods of 
deferred action to approximately 100,000. We now know that was 
108,081 individuals who had requested deferred action under the 
original 2012 DACA guidelines and were otherwise determined to 
warrant such relief including the issuance of 3-year EADs for 
those 2012 DACA recipients who were eligible for renewal.
    These pre-injunction grants of 3-year periods of deferred 
action to those already eligible for 2012 DACA were consistent 
with the terms of the November guidance. Do you know who issued 
that November guidance that basically indicated that it would 
be okay to issue 3-year benefits?
    Ms. Saldana. No, sir. You know, ICE does not have 
responsibility over the DACA and DAPA. That is our sister 
agency, Citizenship and Immigration Services.
    Mr. Gohmert. Okay.
    So you don't care who issues the orders or the benefits 
that say you can't do your job and deport people who are here 
illegally? You don't care? You don't look to see who is 
responsible for benefits that are violating a court order? You 
just say, ``Oh, well, they have got the benefits even though it 
violated a court order. I don't care if they are 
illegitimate?''
    You don't care who issued those, the guidance or the 
illegal order or the illegal benefits in opposition to the 
court's order?
    Ms. Saldana. I care about violations of court orders, sir, 
but that is not something that I was directed to do. That is 
those who confer the benefit, which is Citizenship and 
Immigration Services.
    Mr. Gohmert. Yes, but if someone has benefits that are 
fraudulent or illegal, do you say, ``Oh, well, I guess we can't 
deport these people because, even though they are fraudulent or 
illegal, I am going to recognize them because I never look 
beyond the face of the benefits that people that are illegally 
here have.''
    Surely, you don't accept fraudulent or illegal benefits or 
visas, allowing people to stay, do you?
    Ms. Saldana. No. I don't like fraud.
    Mr. Gohmert. Well, I wouldn't think so. So I come back to 
the original question. Your job is, in part, to deport people 
who are illegally here. Correct?
    Ms. Saldana. Yes, sir.
    Mr. Gohmert. So let me just ask you, or don't ever ask a 
why question, I want to know why you didn't deport people who 
got 3-year benefits when those 3-year benefits were illegal.
    Ms. Saldana. I am not aware of that being the fact. I have 
not seen anything that says that someone that was granted 
status or unlawful presence under the 108,000 has anything to 
do with me. We are enforcing the priorities. That is how we are 
going about our business.
    Mr. Gohmert. Well, Judge Hanen made clear that, if this 
court had ruled according to government's request as scheduled, 
it would rule without the court or the states knowing that the 
government had granted 108,081 applications despite its 
multiple representations to the contrary. Yet they, the 
government, stood silent. Even worse, they urged this court to 
rule before disclosing that the government had already issued 
108,081 3-year renewals despite their statement to the 
contrary.
    If you don't like fraud, does it bother you that your 
Homeland Security department that you work for has actually 
instigated a fraud upon the United States District Court for 
the southern district of Texas?
    Ms. Saldana. Representative Gohmert, with all due respect, 
I would appreciate you not yelling. I will answer your question 
as well as I can but I would tell you that----
    Mr. Gohmert.--Dilatory answer but I would like an answer.
    Ms. Saldana. If I may?
    That whole issue of the 108,000, as you said, is in the 
middle of litigation. I cannot comment on that. I don't 
represent the entire panoply of Federal agencies coming within 
the United States of America. I can only speak to questions 
regarding ICE, and I am glad to do so if you have got one that 
connects the subject to ICE.
    Mr. Labrador. Thank you. The gentleman's time has expired.
    Mr. Gohmert. And I asked the question but, Mr. Chairman, I 
would like to ask unanimous consent to give her one more 
chance?
    You are telling us in this hearing you have no idea where 
the November guidance came from that authorized 3-year 
benefits?
    Ms. Saldana. As they say in Federal court, ``asked and 
answered.''
    Mr. Labrador. Yes. The gentleman's time has expired.
    Thank you very much.
    Mr. Gohmert. I just want to make sure, because I don't 
believe that.
    Mr. Labrador. Ms. Saldana, just really quickly to correct 
the record. We heard from Mr. Gutierrez, who was very eloquent 
on this issue and is very good at making statements here in our 
proceedings. We heard that we are deporting a lot of people 
here that are with traffic offense but, yet, we should be 
deporting people with DUIs.
    Are you aware that over 13,000 people were released out of 
custody last year because of DUIs? In the previous year, it was 
15,000 people. So between the 2 years we have had close to 
30,000 people being released into the United States because of 
the orders of this president with DUI convictions.
    Ms. Saldana. Well, I don't know specifically the numbers 
you are talking about but I will tell you that, I explained 
earlier, that a good portion of those are court ordered 
releases. The others are made on a case-by-case basis depending 
on an individuals----
    Mr. Labrador. But you are aware that this close to 30,000 
people have been released from ICE custody with DUI convictions 
order?
    Ms. Saldana. I presume you are looking at something we 
provided you.
    Mr. Labrador. All right, thank you very much.
    And now, I yield the time to the gentleman from Florida, 
Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Hi, Director. Thank you for coming.
    November 20, Secretary Johnson issued the memorandum 
establishing priorities for apprehension, detention and removal 
of illegal aliens. My first question is, if an alien was 
illegally present in the United States but did not fall within 
the enforcement priorities, would that alien still be subject 
to removal?
    Ms. Saldana. It could be, because, as I pointed out 
earlier, there is a provision in here that says even if someone 
doesn't meet the priorities but you believe they are threat to 
public safety, you are permitted to go forward with that to 
speak to your supervisor and see if a different decision should 
be made in that instance.
    That is a case-by-case basis.
    Mr. DeSantis. So if somebody is not in one of the criteria, 
you obviously would need some affirmative evidence that they 
were a threat to public safety. I mean there are people who are 
threats that we just may not have evidence for. So the absence 
of evidence doesn't mean they are not a threat, but in that 
situation, if there is no evidence, then under these 
enforcement priorities there would be no action whatsoever 
against that individual who was here illegally. Correct?
    Ms. Saldana. If there is no evidence of a threat, that is 
correct.
    Mr. DeSantis. Okay.
    How many aliens who did not fall within the priorities have 
been arrested, detained, and removed from the United States 
since Secretary Johnson announced those policies on November 
20?
    Ms. Saldana. Well, as I said earlier, they did not go into, 
at least with the apprehension and removal guidance did not go 
into effect until January 5.
    Mr. DeSantis. Okay.
    So do you know since January 5, do you have a number or is 
it something you could get for us?
    Ms. Saldana. I think I can get it for you, sir.
    Mr. DeSantis. If you could do that and get it for us, we 
would appreciate that.
    Ms. Saldana. I would be glad to.
    Mr. DeSantis. Has anyone in DHS determined how many 
removable aliens fall within the priorities for removal set 
forth in the November 20 memo?
    Ms. Saldana. At large? In general?
    Mr. DeSantis. That is correct.
    Ms. Saldana. The estimated 11 million?
    Mr. DeSantis. Right. What percentage of that would fall in 
the enforcement priorities?
    Ms. Saldana. I am not aware of a study in that regard. I 
can find that, but I am not aware of one.
    Mr. DeSantis. And is it your opinion that you really 
couldn't determine that?
    Ms. Saldana. On 11 million?
    It would take a long time.
    Mr. DeSantis. What do you think? I mean, what would be the 
ballpark? Could you get us into the ballpark just so we know 
the numbers we are dealing with?
    Ms. Saldana. I think we are now in the area of pure 
speculation, sir. I am sorry.
    Mr. DeSantis. Okay.
    So if you can just give us whatever, I mean, if there has 
been anything done with that, that would be great.
    Is ICE going to do anything to remove aliens who receive a 
final order of removal before January 4, 2014?
    Ms. Saldana. Do anything?
    Again, as I said, if that person doesn't meet the 
priorities, as in someone who was here before January 1, 2014, 
if they are a public safety threat, yes. We can act on that to 
put them into removal procedures. But generally speaking, they 
don't fit one of the priorities. And unless we have some, as I 
said earlier----
    Mr. DeSantis. So that should have even if so somebody has 
already received a final order of removal, say December 2013, 
it has gone through the system, the law has been enforced, you 
then would say, unless there is additional evidence, that the 
person could propose a threat to society, that order of removal 
is essentially rescinded.
    Ms. Saldana. Well, keep in mind that there is always a 
process through the immigration courts that someone can even go 
and contest that order.
    Mr. DeSantis. Right, but let us put that aside. So from the 
enforcement perspective, anything before January 1, 2014, it is 
final order of removal if not accompanied by evidence of a 
threat to public safety, that would mean that ICE would simply 
move on.
    Ms. Saldana. Or national security. That is correct.
    Mr. DeSantis. Okay. I will yield back the balance of my 
time.
    Mr. Labrador. All right, thank you.
    Well, thank you very much, Madam, for your time and for 
your service to the Nation. And I know you have been getting it 
from both sides here so it has been an interesting hearing.
    This concludes today's hearing.
    Thanks to our witness for attending. Without objection, all 
Members will have 5 legislative days to submit additional 
written questions for the witness or additional materials for 
the record.
    The hearing is now adjourned.
    [Whereupon, at 12:39 p.m., the Committee was adjourned.]







                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Material submitted by the Honorable Luis V. Gutierrez, a Representative 
 in Congress from the State of Illinois, and Member, Committee on the 
                               Judiciary

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Response to Questions for the Record from the Honorable Sarah R. 
Saldana, Director, U.S. Immigration and Customs Enforcement, Department 
                          of Homeland Security


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
